APPENDIX

APPENDIX
TABLE OF CONTENTS
PAGE

Order of the United States Court of
Appeals for the Ninth Circuit Denying En
Banc Rehearing (February 7, 2019)........................... 1a
Memorandum Disposition of the United
States Court of Appeals for the Ninth
Circuit Affirming District Court’s
Terminating Sanctions Order (November 9,
2018) ........................................................................... 3a
Excerpts of Unofficial Transcript of Oral
Argument Before the United States Court
of Appeals for the Ninth Circuit (October
10, 2018) ..................................................................... 7a
Judgment of the United States District
Court for the Northern District of
California (March 21, 2017) .................................... 22a
Order Imposing Terminating Sanctions of
the United States District Court for the
Northern District of California (March 9,
2017) ......................................................................... 24a
Order To Show Cause of the United States
District Court for the Northern District of
California (September 26, 2016) ............................. 76a

TABLE OF CONTENTS
(continued)
PAGE

Clerk’s Notice Regarding Plaintiff’s Motion
for A Default Judgment Against Almaviva
S.P.A. and Almawave S.R.L. (November 21,
2016) ....................................................................... 80a
Order of the United States District Court
for the Northern District of California
Vacating Trial and Final Pretrial
Conference (August 23, 2016) ............................... 81a
Clerk’s Notice Regarding Court’s Taking
Summary Judgment Motions Under
Submission (July 19, 2016) ................................... 82a
Excerpts of Fed. R. Civ. P. 37 .................................. 83a
Excerpts of Notes of Advisory Committee on
Rules - Fed. R. Civ. P. 37 ......................................... 86a
Excerpts from National Archives of
Respondents’ Petition for Rehearing Before
United States Supreme Court in National
Hockey League v. Metro. Hockey Club
(August 9, 1976) ....................................................... 87a

1a

ORDER DENYING EN BANC REHEARING
(FEBRUARY 7, 2019)

LOOP AI LABS, INC., a Delaware corporation,
Plaintiff-Appellant and Cross-Appellee
and
VALERIA C. HEALY, lead counsel for plaintiff Loop
AI Labs, Inc., Counsel-Appellant and Cross-Appellee
v.
ANNA GATTI; ALMAVIVA S.P.A., and Italian
Corporation; ALMAWAVE S.R.L., an Italian
corporation; ALMAWAVE USA INC., a California
corporation; IQSYSTEM LLC, a California limited
liability company; IQSYSTEM, INC., a Delaware
corporation, Defendants-Appellees and CrossAppellants
Nos. 17-15608, 17-15621,
17-15743, 17-15784
UNITED STATES COURT OF APPEALS FOR THE
NINTH CIRCUIT
Filed February 7, 2019
ORDER
BEFORE: MURGUIA and FRIEDLAND, Circuit
Judges, and HINKLE,* District Judge.
*

The Honorable Robert L. Hinkle, United States District
Judge for the Northern District of Florida, sitting by

2a

Judge Murguia and Judge Friedland have voted
to deny the petition for rehearing en banc. Judge
Hinkle recommends denial of the petition for
rehearing en banc. The full court has been advised of
the petition for rehearing en banc, and no judge has
requested a vote on whether to rehear the matter en
banc. Fed. R. App. P. 35.
The petition for rehearing en banc is DENIED.

designation.

3a

MEMORANDUM DISPOSITION
(NOVEMBER 9, 2018)
UNITED STATES COURT OF APPEALS FOR THE
NINTH CIRCUIT
LOOP AI LABS, INC., a Delaware corporation,
Plaintiff-Appellant and Cross-Appellee,
and
VALERIA C. HEALY, lead counsel for plaintiff Loop
AI Labs, Inc., Counsel-Appellant and Cross-Appellee,
v.
ANNA GATTI; ALMAVIVA S.P.A., and Italian
Corporation; ALMAWAVE S.R.L., an Italian
corporation; ALMAWAVE USA INC., a California
corporation; IQSYSTEM LLC, a California limited
liability company; IQSYSTEM, INC., a Delaware
corporation, Defendants-Appellees and CrossAppellants
Nos. 17-15608, 17-15621,
17-15743, 17-15784
Loop AI Labs, Inc. v. Gatti,
742 Fed. App’x 286 (9th Cir. November 9, 2018)
Appeal from the United States District Court for the
Northern District of California
Haywood S. Gilliam, Jr., District Judge, Presiding
Argued and Submitted October 10, 2018
San Francisco, California

4a

Filed November 9, 2018
BEFORE: MURGUIA and FRIEDLAND, Circuit
Judges, and HINKLE*, District Judge.
∗∗

MEMORANDUM:

The plaintiff asserted wide-ranging commercial
claims against six defendants. The plaintiff
repeatedly violated court orders on discovery and
other matters. After issuing a detailed order to show
cause and considering the plaintiff’s response, the
district court dismissed the action. The order of
dismissal explained the decision at length and
determined, without further explanation, that each
side would bear its own costs and attorney’s fees. The
order revoked the plaintiff’s attorney’s pro hac vice
status in this case and said that the district judge
would not grant any motion from the attorney to
appear pro hac before him in future matters.
The plaintiff has appealed the dismissal. The
defendants have appealed the denial of costs and
fees. The plaintiff’s attorney has appealed the pro
hac ruling and statement.
The dismissal was procedurally and substantively
The Honorable Robert L. Hinkle, United States District
Judge for the Northern District of Florida, sitting by
designation.
*

This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.
∗∗

5a

proper, not an abuse of discretion. The plaintiff’s
violations made it impossible for the defendants—all
of them—to prepare for trial. Repeated valid orders
and warnings had proved insufficient to bring about
compliance. After two years of attempting to resolve
the parties’ numerous discovery disputes and the
plaintiff’s disregard for its orders, the district court
acted well within its discretionary docketmanagement and discovery authority by dismissing
the case. See Conn. Gen. Life Ins. Co. v. New Images
of Beverly Hills, 482 F.3d 1091, 1096 (9th Cir. 2007).
Considering all the circumstances, including the
sanction of dismissal and the overall conduct of the
litigation, requiring each party to bear its own costs
and fees was not an abuse of discretion. The absence
of an explanation might otherwise be grounds for a
remand, but the district court plainly paired the
decision on costs and fees with the decision to
dismiss the action. A remand for an order confirming
the court’s rationale would not change the result.
Moreover, the defendants made clear at oral
argument that they do not seek a ruling in this court
that would remand the overall package of
sanctions—potentially opening not only the cost-and
fee issue, but also the dismissal. Further litigation
that would serve no apparent purpose is precisely
what this case does not need.
Because we affirm the district court’s dismissal,
the appeal of the pro hac revocation no longer
matters in one sense. The case is over, and, because
pro hac status is granted for participation in a
particular case, the plaintiff’s attorney’s pro hac
status would have terminated along with the end of

6a

the case regardless of any specific ruling on the
issue. The issue might therefore be considered moot.
Plaintiff’s attorney contends, however, that there is
ongoing damage to her reputation that makes the
revocation a live case or controversy. Taking her
representations as true, we agree the case is not
moot. We nevertheless affirm because we are
persuaded that any error here was harmless. The
attorney’s conduct that led to her pro hac revocation
was all but identical to Loop-AI’s conduct that led to
the terminating sanctions, so the attorney briefed
her personal defenses in response to the order to
show cause. Both in her briefing to the district court
and in this court, the attorney cites nothing that the
district court failed to consider or that she could have
said to affect its decision if she had notice that pro
hac status would be considered. Finally, the
attorney’s challenge to the district court’s statement
about future pro hac applications is not ripe. There
will be time enough in the future for the district
court to consider the attorney’s application for leave
to appear, should the occasion arise.
The parties shall bear their own costs on appeal.
AFFIRMED.

7a

EXCERPTS OF UNOFFICIAL TRANSCRIPT
OF ORAL ARGUMENT BEFORE NINTH
CIRCUIT (OCTOBER 10, 2018)
LOOP AI LABS, INC.,
v.
ANNA GATTI et al.
Nos. 17-15608, 17-15621,
17-15743, 17-15784
UNITED STATES COURT OF APPEALS FOR THE
NINTH CIRCUIT
Certified Unofficial Transcription Of AudioRecording Of Oral Argument Held October 10, 2018
Before Ninth Circuit.*
TRANSCRIPTION BY
HERITAGE REPORTING CORPORATION
1220 L Street, N.W., Suite 206
Washington, D.C. 20005
(202) 628-4888

The Ninth Circuit filed the audio-recording of this argument
as part of the appellate record on October 26, 2019. The full
audio and video-audio are available from the following Ninth
Circuit’s links (last accessed June 25, 2019):
https://cdn.ca9.uscourts.gov/datastore/media/2018/10/10/1715608.mp3 (audio);
https://www.ca9.uscourts.gov/media/view_video.php?pk_vid=00
00014352 (video-audio).
*

8a

BEFORE: MURGUIA and FRIEDLAND, Circuit
Judges, and HINKLE,† District Judge.
APPEARANCES:
For Loop AI Labs, Inc.:
VALERIA CALAFIORE HEALY
Healy LLC
154 Grand Street
New York, NY 10013
For Almaviva S.P.A., Almawave S.R.L.
and Almawave USA, Inc.:
MITCHELL Y. MIRVISS
Venable, LLP
750 E. Pratt Street
Baltimore, MD 21202
For Anna Gatti, IQSystem, Inc.
and IQSystem LLC:
JANET BRAYER
Janet Brayer Law Office
456 Montgomery St., 20th Floor
San Francisco, CA 94104
PROCEEDINGS

The Honorable Robert L. Hinkle, United States District
Judge for the Northern District of Florida, sitting by
designation.
†

9a

(Minute 9:02 of audio and audio-video recording
available at https://youtu.be/WxYltxbwuY0?t=542)
MS. HEALY: … Your Honors, I would like to
make only two points regarding Loop AI’s appeal.
The first point is this: I believe the trial judge
sanctioned the wrong party. I say that because a long
line of Supreme Court cases establishes that
terminating sanctions of any kind are an extreme
remedy, to be imposed only in two situations. The
first situation is when there is a total failure to
provide discovery, and that was the rule established
in Hammond Packing by the Supreme Court, and the
total failure did happen in this case, but it wasn’t on
the side of Loop AI. The total failure to provide
discovery happened on the side of the two Italian
defendants, Almaviva S.P.A. and Almawave S.R.L.,
and that is the issue that’s discussed in our brief in
connection with our appeal of the denial of the
motion for a default judgment.
The second situation, Your Honors, where the
Supreme Court has allowed the issuance of
terminating sanctions where there is no total failure
relates to a material failure, where a party has failed
to provide discovery that is material to a claim or a
defense in the case. In the case a claim over the
defense advance by the party who obtained the
discovery order. And, even in that situation, Your
Honors, the Supreme Court case law is clear that
that type of sanction can issue only if two
requirements are met. The sanction has to be just,
and the sanction has to be specifically related to the
claim that was at issue in the discovery order that

10a

was violated. And the Supreme Court has held that
those two requirements are intended to address both
the general due process concerns, and the rule in
Hammond Packing. And that in particular, in
Compagnie des Bauxites, is referred to as the specific
due process requirement which require a court to tie
that sanction to tailor the terminating sanction or
the other type of sanction that is being imposed to
the specific claim at issue in the discovery order that
was violated.
In Compagnie des Bauxites, the 19-- I believe it
was a 1982 or 1986 case, and I believe the most
recent pronouncement by the Supreme Court on this
point. The Supreme Court went through a series of
factors that it found where the factors allowed the
District Court and the Appellate Court to show that
the general due process concerns were satisfied, and
it also then went to address a specific factors, in that
particular case, the sanction was just the omission of
certain specific facts that were at issue in the
particular defense.
JUDGE MURGUIA: So, are you arguing that
there can never be a termination of the case?
MS. HEALY: I’m arguing that there can never be
a termination of the case without the linking that
the Supreme Court has required. I believe that there
can never be a termination of the case, unless there
is a total failure to provide discovery. And there can
never be a total termination of a case involving
claims against a variety of parties unless the Court
specifically ties the termination of a particular claim
to the discovery that wasn’t provided, and the

11a

discovery that was at issue in the claim addressing
the discovery order allegedly violated.
I don’t believe, Your Honors, I think in the last
two years I’ve read a lot of cases on this point,
unfortunately -- excuse me. I’m sorry. I couldn’t find
a single case where we have a situation where the
judge on its own, without the party asking for it, goes
ahead and issues an order terminating the entire
case, all of the claims against all of the parties,
without even explaining which particular order was
violated, what was the claim or the defense at issue
in the particular order, what discovery was missing
that we didn’t provide that made it impossible for
them to address the claim or defense and they
returned to Compagnie des Bauxites, because in that
case the court specifically found that the court took
extraordinary efforts to tailor the sanction to what
was at issue there, and in addition to repeatedly
telling the party you have to produce this discovery
that goes to the personal jurisdiction, that was the
claim at issue in that discovery order –
JUDGE FRIEDLAND: Can I ask you about your
Pro Hac Vice status? So, you argue that you should
have had notice that the Pro Hac Vice status was at
issue. What would you have done differently, if you’d
had notice of that?
MS. HEALY: I would have presented my case,
Your Honors.
JUDGE FRIEDLAND: But didn’t you? I mean,
because you were representing the client and the
issue was whether there were violations of discovery,

12a

isn’t it all the same thing whether you had done -you were the lawyer, so if they violated these
discovery orders, it was you. So, what’s the
difference? What would you have -- I think you did
argue we didn’t do that, it didn’t matter, all these
things you are arguing now, aren’t they the same
kinds of arguments?
MS. HEALY: So, I don’t believe so, for a couple of
reasons, Your Honors. I think my understanding of
the TSO, as I refer to it in our briefs, is that he -- the
trial judge revoked my Pro Hac Vice because of the
five charges that he identified in the inherent power
section of his Order. And those were nowhere
addressed in the -- in the Order to Show Cause that
was issued on September 26th. He didn’t address
any aspect of those charges. I had no idea that he
was considering revoking the Pro Hac. I had no idea
what the legal basis for that would be, and I still
believe that he did not have the power to revoke the
Pro Hac, because even under inherent power, you –
JUDGE FRIEDLAND: I don’t really understand
how you can say that. The Order to Show Cause
listed a whole bunch of orders about improper
conduct during depositions; listed improper
responses to interrogatories; listed a whole -- I mean,
on and on and on, listed all these things that
basically you were accused of doing. I don’t
understand that there is a difference between those
and the ones that the Judge then talked about.
MS. HEALY: Your Honor, I would respectfully
refer the Court to the case of Asa -- I think it is Asa
v. Carey. In Asa v. Carey, which is a case that we

13a

cite in our briefs, there was a similar -- it involved
the sanction against, issued by the State Department
and the sanction had a similar notice that was very
similar to the Order to Show Cause, except it was
much more extensive, and the Court found that
notice was insufficient. I don’t know -- looking at that
Order to Show Cause, as we try to explain in the
brief, how I could have addressed any what the
Judge put in his terminating sanctions order just
providing a bullet point list of orders doesn’t tell me
anything. I certainly would have been able to
address in very much detail what he said in his
terminating sanctions order. I don’t believe, I mean,
we had the opportunity and I asked Your Honors for
the opportunity to address, to understand what the
Judge had in mind, why he believed it was necessary
to issue an Order to Show Cause, what specific
sanctions he was considering –
JUDGE MURGUIA: Were your -- were your
rights, I mean, really impinged by revoking the Pro
Hac Vice status at the end of the case, when a Pro
Hac Vice status only confers, you know, the ability to
appear in a case temporarily for the purpose of
conducting a particular case. I mean, it seems like
the case was over, so whether you got what you claim
sufficient due process, or not, your Pro Hac Vice
status would have been over anyway.
MS. HEALY: Your Honor, I was greatly damaged
with respect, by the revocation not so much because
as Your Honor indicates if the case is over the Pro
Hac Vice terminates, but here it was imposed as a
sanction and I am facing everyday what remains of
my career that sanction being put in front of other

14a

courts for reasons that have nothing to do with that.
It’s been greatly damaging, and I think the case law
recognizes, including in Kohl, that a sanction –
JUDGE MURGUIA: The Pro Hac Vice has been
damaging, or the substantive order on the Order to
Show Cause?
MS. HEALY: The Pro Hac Vice revocation as a
sanction is greatly damaging. My practice, Your
Honor, has been for years I practice in business
litigation, and I’ve appeared Pro Hac Vice in many
cases. I mean, mostly I appear Pro Hac Vice,
actually, and to have the -- I don’t know if I’ll be able
to appear again in other cases. There is many courts
that require the disclosure of sanctions. Some courts
don’t, but aside from the disclosure, Your Honor,
having that revocation is a very, very significant
smear on my professional reputation, and I believe at
a minimum before I’m taken away the possibility of
practicing Pro Hac Vice in that case, or having to
have this on my career, I should be given at a
minimum the opportunity to address in detail what
the Judge believe I did wrong.
JUDGE HINKLE: So, if we just vacate the Pro
Hac revocation, that takes care of that, right? I
mean, if there is a remand, it’s another issue. But if
the case is over here today, and all we do is vacate
the revocation of your Pro Hac status, because it
doesn’t matter, the case was over, that takes care of
it, doesn’t it?
MS. HEALY: I think if Your Honor writes an
opinion saying the Court will vacate because it

15a

doesn’t matter it will still be substantially prejudicial
to me, because the issue, Your Honor, is what the
Judge wrote that led to the Pro Hac revocation. I
have to have the ability to -- I want to give the Court
an example.
JUDGE MURGUIA: If we vacate that ruling,
then you don’t have that. Then it’s not there.
MS. HEALY: Yes, of course, it’s no longer there.
JUDGE MURGUIA: So, that would address that
concern, it seems like. You still have the Order to
Show Cause substantive ruling that I think would
cause more concern.
MS. HEALY: Your Honor, I think -- I would like
to spend one more minute, if I may, because I realize
that actually time does go by much faster than I
thought, to address one point about my client, which
is the most important part of the appeal. I think,
Your Honors, I understand that the TSO reads in a
way that makes us look very bad, and all I’m asking
the Court here today is for fairness and for the Court
to review the actual record. When I say the most
irrational thing in this case is that we actually
moved for a Hammond Packing default judgment,
because we were given no discovery by two
defendants, and what we instead got was an order
sua sponte by the district judge addressing things
that -- no defendant requested the sanction that the
court issued, and I think to me that’s the most
important part of the case, and I obviously was
greatly personally damaged by the sanction, but I’m
here today really for my client, and Your Honor with

16a

that I will –
JUDGE MURGUIA: You want to reserve the
balance of your time?
MS. HEALY: Yes. Thank you.
[….]
(Minute 47:51 of audio and audio-video recording
available at https://youtu.be/WxYltxbwuY0?t=2871)
MS. HEALY: Your Honors, I know I have very
limited time, so I’ll try to respond to the points I
believe are more important.
First, I met Mr. Mirviss here for the first time
today. He was not counsel below, as Judge Hinkle
noted. If he represents to this Court that there were
no merits to the case, why then did they not pursue
their cross-appeal of fully briefed summary judgment
motions that had been pending in front of the court
for eight months? I couldn’t not find a single case
where parties fully briefed summary judgment
motions, and Ms. Brayer below represented only one
of the three parties that she now represents, there
were four -- excuse me, there were three summary
judgment motions and a motion to strike that was
filed by the Italian defendants and Almawave USA,
concurrently. Those motions were fully briefed. They
addressed the merits of every single claim. If there
was no merit to our claim, it would have been very
easy for the court to simply rule on those pending
motions.

17a

Second point I would like to make, that Mr.
Mirviss again repeated to the Court that his clients
produced everything apparently today saying 54,000
documents in his brief. At one point they say 36,000
documents that they were all one and the same, and
all I ask the Court to do is to please review the
record. In particular, ER9753 is a portion of a brief
filed by the Italian defendants, and several pages
below, 9756, 9773, 9774, where the Italian
defendants repeatedly represented to the court they
are entities legally distinct from Almawave USA,
with separate offices, boards, and books, and records.
In every single one of the responses to the discovery
requests, which I hope the Court takes a moment to
review, the Italian defendants represented that they
were producing nothing. Your Honors, we did not
receive the discovery, and I’m not asking the Court
to believe me, but I’m asking the court to believe the
record.
JUDGE HINKLE: But you did get discovery from
Almawave USA?
MS. HEALY: Your Honor, we addressed that in
the default judgment. Almawave USA actually
represented in its discovery responses, which were
filed with the default judgment, that the word
Almawave Italy and the Almaviva were vague and
ambiguous, that they were just producing what was
in their possession, custody, and control, and in the
default judgment motion we specifically address key
evidence that we requested that was never produced
by Almawave USA, so we were faced with a record of
500- plus discovery requests which, Your Honors,
begin at ER1145 to ER 1358, and then ER1359 to

18a

ER1576. That’s the section of the ER where the
Court will find everything related to the default
judgment, so we received 500-plus responses that
said specifically they are not responding, each of the
Almaviva SPA, or Almawave USA, objects to each
interrogatory, document request, and does not
provide a response on the grounds that the court
does not yet determine personal jurisdiction and
obligating them to participate in discovery would be
a Constitutional violation. This was the response
several iteration of, sometimes they change some
words, in every single request. When we filed the
default judgment motion this is what we had, and
that’s why, Your Honors, we spent substantial time
trying to request specific relief against the two
Italian entities. We did not move for a default
against Almawave USA, because like I was trying to
say at the beginning of my argument, there are
different remedies when some party does some
production, but the idea that Almawave USA
produced in their behalf is not in the record, and is
not, Your Honors, what happened.
I would like to address a third point. Ms. Brayer
talked about the trade secret disclosures. Your
Honors -- and I’ve been accused today repeatedly of
violating the local rules. I was asking the court to
apply the local rules. I believe we were materially
prejudiced by the magistrate procedures, and I think
under Hollingsworth v. Perry the Supreme Court
does give a party a right to please ask the court to
apply the procedures. Those procedures were very
prejudicial. I have practiced for 14 years. I have
never had a situation like this. I am not one to tell
the court no, I’m not going to comply with your

19a

Order. Your Honors, we did the best we could to
comply, and the trade secret disclosure –
JUDGE HINKLE: Just –
MS. HEALY: Yes.
JUDGE HINKLE: I don’t want to slow you down.
One example, you were ordered to produce
documents for which you had not filed a privilege log,
you sought mandamus in the Ninth Circuit –
MS. HEALY: Yes.
JUDGE HINKLE: -- you did not get a stay of the
Order.
MS. HEALY: Yes.
JUDGE HINKLE: You did not produce the
documents.
MS. HEALY: Yes.
JUDGE HINKLE: You violated the Order. What
am I missing?
MS. HEALY: Your Honor, that’s true, but that’s a
different issue. That was a sanction. That wasn’t a
discovery order, it was a sanction that was issued by
the magistrate without notice, and they address that
in detail. The Supreme Court has held that if we
want to preserve privilege, we have to risk contempt.
And that was the basis for our mandamus. When the
court denied the mandamus, we immediately

20a

produced. At the time the court issued the
terminating sanctions order, we had produced those
documents, and I submit to Your Honor that those
however many documents were part of the privilege
log, cannot be a basis to dismiss all claims against all
parties. I want to take the example of Anna Gatti,
who was the principal defendant, individual
defendant, in the case and the former CEO. She
wasn’t represented by Ms. Brayer, she was
represented by another counsel below. The key
claims against Anna Gatti have nothing to do with
any aspect of the terminating sanctions order. She’s
barely mentioned, Your Honor. She had contract
claims. She had -- there were substantial claims that
had literally nothing to do with anything in the case.
As of May 2016, the magistrate issued an order
where she found that Anna Gatti, two months after
discovery closed, produced discovery only in response
to one of 93 discovery requests, and that happened in
May, set forth in our brief at the beginning, I believe,
where we lay out who the parties are. And I know
I’m way beyond my time, Your Honors, and I
apologize.
JUDGE MURGUIA: Okay. Thank you very much.
I want to thank all the –
MS. HEALY: Thank you for your time, Your
Honors.
JUDGE MURGUIA: -- lawyers for their
presentations here today. The case of Loop AI Labs,
Inc., and Valeria Calafiore Healy versus Anna Gatti,
et al. is submitted. We are now in recess. Thank you.

21a

(Whereupon, the audio in the above-entitled
matter concluded.)
CERTIFICATE
DOCKET NO.: 17-15608, 17-15621, 17-15743, 1715784
CASE TITLE: Loop AI Labs and Valeria Calafiore
Healy v. Anna Gatti, et al.
HEARING DATE: October 10, 2018
I certify that the foregoing is a true and correct
transcript made to the best of our ability from a copy
of the official electronic digital recording provided by
the Healy LLC in the above-entitled matter.
Date: June 14, 2019
/s/ Robin Nelson
Heritage Reporting Corporation
Suite 206
1220 L Street, N.W.
Washington, D.C. 20005-4018
Heritage Reporting Corporation
(202) 628-4888

22a

JUDGMENT
(March 21, 2017)
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
LOOP AI LABS INC.,
Plaintiff,

Case No. 15-cv-00798
(Dkt. 995)

v.
ANNA GATTI, et al.,
Defendants.

JUDGMENT

For the reasons stated in the Court’s order
imposing terminating sanctions, Dkt. No. 993,
judgment is hereby entered in favor of Defendants.
The Court declines to exercise supplemental
jurisdiction
over
Defendant
Anna
Gatti’s
counterclaim, Dkt. No. 197 at 31-32, because it has
dismissed the claims over which it had original
jurisdiction.1
IT IS SO ORDERED.

Dated: 3/21/2017
See 28 U.S.C. § 1367(c)(3); see also Sanford v. MemberWorks,
Inc., 625 F.3d 550, 561 (9th Cir. 2010) (“[I]n the usual case in
which all federal-law claims are eliminated before trial, the
balance of factors to be considered under the pendent
jurisdiction doctrine—judicial economy, convenience, fairness,
and comity—will point toward declining to exercise jurisdiction
over the remaining state-law claims.” (citation and internal
quotation marks omitted)).
1

23a

/s/ Haywood S. Gilliam, Jr.
HAYWOOD S. GILLIAM,
JR.
United States District
Judge

24a

ORDER IMPOSING TERMINATING
SANCTIONS (March 9, 2017)
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
LOOP AI LABS INC.,
Plaintiff,

Case No. 15-cv-00798
(Dkt. 993)

v.
ANNA GATTI, et al.,
Defendants.

ORDER IMPOSING
TERMINATING
SANCTIONS

Under Federal Rule of Civil Procedure 37(b) and
the Court’s inherent authority, the Court issues
terminating sanctions dismissing Plaintiff Loop AI
Labs Inc.’s action with prejudice. The Court
previously issued an order to show cause why
terminating sanctions should not issue, Dkt. No. 894,
to which Plaintiff responded, Dkt. No. 922. For the
reasons discussed below, the Court concludes that
Plaintiff’s obstructionist discovery conduct, flagrant
disregard for the Court’s authority, and inability to
meet its most basic professional obligations warrant
no lesser sanction.
I. BACKGROUND
Plaintiff initiated this action in February 2015.
Dkt. No. 1. The operative complaint alleges eighteen
causes of action including civil conspiracy, fraud,
breach of contract, theft of corporate opportunity,
misappropriation of trade secrets, and conversion

25a

against Defendants Anna Gatti; Almaviva S.p.A,
Almawave S.r.l., Almawave USA Inc. (collectively,
“Almawave”); IQSystem, Inc. (“IQS, Inc.”), and
IQSystem LLC (“IQS LLC”). See Dkt. No. 210
(“SAC”). Plaintiff alleges that Defendant Gatti, its
now-former CEO, conspired with Defendants to
misappropriate Plaintiff’s trade secrets and
generally sabotage its business prospects. According
to Plaintiff, while Gatti pretended to work full time
for Loop AI, she was simultaneously providing
advisory services for multiple competing startups
and took a concurrent CEO position with Defendant
Almawave. SAC ¶ 116. Plaintiff contends that
Almaviva intended to use Gatti’s assistance to buy
Loop AI for a “bargain price” or to hire away its key
employees and obtain access to its proprietary
technology and trade secrets. SAC ¶ 21. Plaintiff
alleges that Gatti’s scheme involved sabotaging
Plaintiff’s access to funding, sharing Plaintiff’s
proprietary information with the other Defendants,
and using Plaintiff’s time, property, and other
resources to conduct business on behalf of
Almawave. SAC ¶¶ 22-23, 29.
From the beginning, this case has been marked
by a level of dysfunction and inability to work
together that is unprecedented in the Court’s
experience. See, e.g., Dkt. Nos. 96 & 98 (parties filed
separate
case
management
statements
in
contravention of Local Rule 16-9); Dkt. No. 101
(inability to conduct Rule 26(f) Meet and Confer);
Dkt. No. 157 at 47-57 (Plaintiff’s counsel blocked
emails from Defendants, choosing to accept only
faxes, letters, and phone calls from opposing counsel,
because receiving emails from Defendants was too

26a

“intrusive”); Dkt. No. 288 (Defendants requested a
discovery referee because Plaintiff allegedly “refuses
to discuss any items beyond Loop’s own agenda”
during meet-and-confer meetings). Magistrate Judge
Donna M. Ryu attempted to “impose a workable
structure on the parties’ discovery dispute resolution
process,” Dkt. No. 271 at 2, and the docket highlights
the Court’s many, many attempts to advance this
litigation in a productive way.1 Over the course of the
last two years, the Court has tried numerous
approaches, such as ordering court-supervised
discovery management conferences, Dkt. No. 136 at
2; ordering the parties to audio record meet and
confer sessions, Dkt. No. 156 at 2; instituting
standing meetings each week to encourage
substantive
and
meaningful
meet-and-confer
sessions, Dkt. No. 271 at 2; and eventually requiring
the parties to provide dial-in information and
agendas
for
the
weekly
meet-and-confer
teleconferences, so that the Court could monitor the
parties’ conduct by joining the calls, Dkt. No. 415 at
2.
As described more fully below, Plaintiff’s
insubordination, through its counsel Valeria C.
Healy, was and continues to be particularly
egregious, posing a significant obstacle to the
progress of this case. The Court has given Plaintiff
many chances to litigate in a professional and
productive manner, and has been consistently
confronted with counsel’s utter disregard for the
On June 16, 2015, the Court referred all discovery motions to
a magistrate judge under Local Rule 72-1. Dkt. No. 113. In this
order, all uses of the word “Court” refer either to the District
Court or collectively to Judge Ryu and this Court.
1

27a

Court’s authority and her persistent refusal to
comply with the Court’s orders and the Federal
Rules. The following section details the key discovery
orders serving as the basis of this order.
A. Improper Conduct in Depositions of
Three Key Witnesses
As early as December 2015, Judge Ryu gave
specific warnings with respect to the issue of
privilege during depositions: “there can be no
instructions to not answer except for privilege. . . .
And it has to be clearly privilege. Because if it’s not,
again there will be sanctions.” Dkt. No. 335 at 46.
On January 25, 2016, Almawave first deposed
Plaintiff’s co-founder and CEO Gianmauro Calafiore.
Dkt. No. 884 at 1 (“Order 884”). After reviewing the
deposition transcript, Judge Ryu issued an order
regarding Healy’s conduct during the deposition.
Dkt. No. 436 (“Order 436”).
[The deposition transcript] is replete
with examples of inappropriate
behavior by Plaintiff’s counsel, Valeria
Calafiore Healy. Ms. Healy made
speaking objections, instructed the
deponent not to answer questions for
reasons other than the invocation of
privilege, and repeatedly objected
without stating a basis for the
objection. The deponent, Gianmauro
Calafiore, was often argumentative
and uncooperative in providing
testimony, thereby delaying the

28a

deposition process. Ms. Healy and Mr.
Calafiore’s
obstructionist
conduct
repeatedly stymied Alma[w]ave USA’s
attempts to obtain discovery through
this key deposition.
Id. at 1. Judge Ryu sanctioned the Plaintiff, ordering
five additional hours of deposition and requiring
Plaintiff to bear the cost. Id. The order again
provided specific instructions:
In the future, Ms. Healy, and indeed,
all attorneys defending depositions in
this litigation (1) shall state the basis
for an objection, and no more (e.g.,
“relevance,” “compound,” “asked and
answered”); (2) shall not engage in
speaking objections or otherwise
attempt to coach deponents; and (3)
shall not direct a deponent to refuse to
answer a question unless the question
seeks privileged information.
Id. at 2. Judge Ryu further warned that “[g]iven Ms.
Healy’s repeated inappropriate conduct in her
defense of the Calafiore deposition, any further
breach” would result in sanctions. Id.
On August 25, 2016, Judge Ryu issued an order
regarding Healy’s continued conduct during the
deposition of Calafiore, as well as Loop AI’s other
executives Bart Peintner and Patrick Ehlen. Dkt.
No. 884. Leading up to this order, Judge Ryu had
already twice directed Plaintiff to produce Peintner
and Ehlen for depositions as they “appeared to be

29a

percipient witnesses.” See Dkt. No. 465 (March 10,
2016); Dkt. No. 526 (March 25, 2016). Judge Ryu’s
March 25 order included specific dates, ordering that
Ehlen and Peintner appear on March 29 and March
30, and that Calafiore and any of Plaintiff’s 30(b)(6)
witnesses appear either on March 31 or April 1. Dkt.
No. 526. This Court denied Plaintiff’s motion for
relief from Judge Ryu’s nondispositive order
regarding the deposition dates. Dkt. No. 533.
Plaintiff nonetheless failed to follow Judge Ryu’s
orders. See Dkt. No. 555 (Almawave’s letter brief
indicating that “Loop and its witnesses refused to
appear for deposition as ordered”). On April 4, 2016,
Judge Ryu again ordered Plaintiff to make witnesses
Calafiore,
Ehlen,
and
Plaintiff’s
corporate
representative available. Dkt. No. 564.
Order 884 is based on Judge Ryu’s review of the
deposition transcripts of these witnesses. Judge Ryu
found that “[i]n direct contravention of the court’s
February 29, 2016 order, Healy instructed witnesses
to refuse to answer questions on grounds other than
privilege.” Order 884 at 4 (noting, for example, that
Healy “instructed Plaintiff’s 30(b)(6) designee
(Calafiore) not to answer certain questions,
unilaterally deciding that the questions were outside
the scope of the noticed Rule 30(b)(6) topics”); id. at 5
(“[W]hen Almawave asked Ehlen, ‘Can you tell us
how your particular algorithms work?’, Healy
instructed him not to answer on the basis of
relevance, again unilaterally taking the topic off the
table.”).2 Judge Ryu cited Healy’s “numerous
As the order further explained, “[o]pposing counsel responded
by asking Healy to stipulate that the subject matter would not
2

30a

improper speaking objections, in direct contravention
of this court’s order that counsel confine objections to
a statement of their basis, (e.g., ‘compound,’ or ‘asked
and answered’), and not engage in speaking
objections or otherwise attempt to coach the
witness.” Id. at 5. Order 884 found “Healy’s coaching
was so effective that the witnesses occasionally
repeated her objections, sometimes verbatim, to the
examining attorney,” and that “[o]n other occasions,
Healy actually attempted to answer the question for
the witness.” Id. at 6-7.3 Order 884 held that Healy
be raised by Plaintiff at trial (i.e., that the matter was truly
irrelevant). Healy refused, stating that such a request was
‘absolutely absurd.’” Dkt. No. 884 at 5.
3

The order provides numerous examples:
“Q: And is it true that, in June 2015, Loop
first launched to the public? Ms. Calafiore
Healy: Objection. Vague and ambiguous. What
do you mean launched? A: What do you mean
launched?”
“Q: Do you think my clients did anything to
interfere with the Objection. Without
revealing attorney work product and attorneyclient privilege, are you asking for his opinion?
A: Are you asking for my opinion?”
“Q: Did you ever think about having Loop
purchased by another company? Ms. Calafiore
Healy: Objection, vague and ambiguous as to
time period. A: During which time period?”
“Q. Not affiliated with Loop? A. Yeah. Q. Are - Ms. Calafiore Healy: And I caution the
witness and -- I’m objecting and caution the
witness as to this question because I think
he’s confusing with Manuela Micoli.”

31a

improperly asserted attorney-client privilege to
prevent witnesses from answering, noting that Healy
“inexplicably refused to allow the witnesses to
respond to questions about their own discussions
with other Loop employees or third parties,” and
“refused to allow Plaintiff’s witnesses to answer
questions about their document collection and
production in this litigation” on the basis of attorneyclient privilege. Id. at 7-8. Judge Ryu concluded that
Healy’s conduct, “including instructions not to
answer questions and speaking objections and
coaching, was both improper and in direct violation

“Q: Do you know how it would be done,
tracking -- Ms. Calafiore Healy: Objection.
Call – calls for speculation. The witness just
testified it not [sic] – it’s not his responsibility.
A: Yeah, it’s not really my area.”
“Q. Which are what? Ms. Calafiore Healy:
Cited in the declaration.
A: Yeah, it was cited in the declaration.”
“Q: Okay. As of today, you don’t know? Ms.
Calafiore Healy: Objection. Objection. Calls
for a legal conclusion. As – this is not a
question that – the witness is not here to
testify in his capacity as the CEO of Loop AI
for the 30(b)(6) deposition, which is tomorrow.
So he’s asking about – you’re asking here
questions about his personal knowledge, and
the witness – and the question calls for a legal
conclusion. A: So the – the answer is that your
questions calls [sic] for a legal conclusion and
we will find out.”
Order 884 at 6 (citations and parentheticals omitted).

32a

of the court’s February 29, 2016 order regarding the
conduct of depositions” and “[a]ccordingly, it is
sanctionable.” Id. at 9. Judge Ryu deferred to this
Court as to what sanction should be imposed. Id.
B. Refusal to Properly Respond to Key
Interrogatories.
On multiple occasions Judge Ryu ordered
Plaintiff to amend its responses to four key
interrogatories. With respect to Interrogatory No. 8,
Almawave sought the factual bases for certain
allegations in the SAC, including Almaviva’s intent
to buy Loop for a bargain price or to hire away Loop’s
key employees and thereby acquire access to Loop’s
proprietary technology. Dkt. No. 428-1. Judge Ryu
first ordered Plaintiff on March 2, 2016 to submit an
amended response by March 9, 2016. Dkt. No. 438
(“Order 438”).4 After receiving notice from Almawave
that Plaintiff had not complied, Judge Ryu issued a
second order on March 22, 2016, again directing
Plaintiff to amend its response. Dkt. No. 508.
With respect to Interrogatory Nos. 3, 5, and 7,
Judge Ryu held that they permissibly sought the
factual bases for Loop’s allegations, and she ordered
Plaintiff to serve amended responses by March 15,
2016. Dkt. No. 465 (“Order 465”). On March 24,
2016, Almawave notified Judge Ryu that Plaintiff
had failed to comply with both Order 438 and Order
According to Defendants, Loop refused to substantively
respond. Dkt. No. 428. Plaintiff did not oppose Almawave’s
discovery letter brief on this issue, and the Court thus
construed the motion as unopposed, ordering Plaintiff to
respond by March 9, 2016. Dkt. No. 438.
4

33a

465. Dkt. No. 523. Following submission of
Almawave’s brief and Plaintiff’s opposition, Judge
Ryu issued an order on May 3, 2016, finding that
Plaintiff’s responses to the four interrogatories were
“plainly and grossly deficient.” Dkt. No. 640 (“Order
640”).
For each response, Plaintiff responded
by directing Almawave to “all
productions by all parties and nonparties in this case, and any further
materials has [sic] may be obtained
through discovery or otherwise.” This
is improper. An answer to an
interrogatory “should be complete in
itself.” In response to nos. 3, 7, and 8,
Plaintiff also listed thousands of bates
numbers with no explanation. This is
an improper use of Rule 33(d); a
responding party “may not abuse the
option . . . by directing the
propounding party to a mass [o]f
undifferentiated records.”
Plaintiff also included nearly 100
pages of allegations that appear to be
cut and pasted from Plaintiff’s second
amended complaint. This too, is
insufficient. . . .
Plaintiff’s response to no. 5, which
sought the bases for Plaintiff’s claimed
damages, is also non-responsive. It
simply lists the categories of damages
Plaintiff seeks; it does not answer the

34a

question of how Plaintiff values its
business, technology, trade secrets,
patents, or confidential information.
None of the responses were verified,
violating Rule 33. . . .
Id. at 3 (citations omitted) (first ellipsis in original).
Judge Ryu concluded that Plaintiff’s responses to the
interrogatories “are not substantially justified, and
are subject to sanctions.” Id. at 4. Judge Ryu again
ordered Plaintiff to provide amended responses:
Given that discovery has now closed,
Plaintiff
shall
supplement
its
responses to interrogatory nos. 3, 5, 7,
and 8 within seven days of the date of
this order. Plaintiff’s responses may
not include allegations pasted from
the operative complaint, and Plaintiff
must provide full, complete answers
for each interrogatory which are
verified under penalty of perjury. Id.
Notwithstanding Order 640, Plaintiff refused to
amend its responses. See Dkt. No. 679 (Almawave’s
discovery letter brief indicating that Plaintiff has not
complied with Order 640); see also Dkt. No. 691
(Almawave’s motion for leave to file a motion for
terminating sanctions regarding Plaintiff’s alleged
refusal to comply with Order 640); Dkt. No. 686 at 45 (Plaintiff’s motion for relief maintaining that it
“properly responded to the Interrogatories and
cannot be compelled to change the factual basis of
[sic] supporting its complaint, which is what the
interrogatories are directed to”).

35a

On July 21, 2016, Judge Ryu ordered Plaintiff to
file a statement indicating whether it had served
supplemental and/or amended responses to each of
the interrogatories at issue. Dkt. No. 850. Judge Ryu
ordered Plaintiff to submit a copy of the
supplemental and/or amended responses that it had
served along with a proof of service. Id. Plaintiff’s
response confirmed that Plaintiff had refused to
amend the interrogatories. See Dkt. No. 856 (“[A]fter
considering the requirements of Order 640 and
reviewing the responses already provided by Loop
AI, Loop AI did not possess any further information
that was responsive to those interrogatories and did
not have any further information to provide as a
supplement to the Interrogatories identified.”).
C. Failure to Properly and Timely Respond
to Requests for Production.
On May 3, 2016, Judge Ryu also admonished
Plaintiff because its responses to several RFPs failed
to comply with Federal Rule of Civil Procedure
34(b)(2). Order 640 at 5-6 (“Plaintiff’s responses
render it impossible to determine the extent of
Plaintiff’s production and whether Plaintiff has
withheld documents responsive to any portions of the
RFPs.”). Judge Ryu ordered Plaintiff to amend its
responses to comply with Rule 34(b)(2) by May 10,
2016. Id. at 6. Almawave filed a discovery letter brief
on May 13, 2016 indicating that Plaintiff had not
complied with Judge Ryu’s order to respond to the
RFPs. Dkt. No. 679. Plaintiff’s motion for relief from
Judge Ryu’s order confirmed Plaintiff’s refusal to
comply with the court’s order. See Dkt. No. 686 at 5

36a

(insisting that “Loop AI served appropriate discovery
responses in compliance with the Federal Rules of
Civil Procedure,” and that it “cannot be required to
amend discovery responses served almost a year ago
to comply with a new rule”). The Court denied
Plaintiff’s motion for relief on May 24, 2016. Dkt. No.
702. On July 21, 2016, Judge Ryu ordered Plaintiff to
file a statement by July 26, 2016 that specified
whether Plaintiff had served the RFPs by the court’s
May 10 deadline. In its late-filed response, Plaintiff
further confirmed its noncompliance: although the
deadline for production was May 10, 2016, Plaintiff
stated that it began to produce on May 11, 2016. See
Dkt. No. 856 at 1 & n.1 (filed July 27, 2016).
Moreover, Plaintiff’s production extended far past
the May 10 deadline, continuing through early June.
Dkt. No. 807 at 3-4.5
D. Refusal to Produce Adequate Privilege
Log
On March 8, 2016, Almawave filed a discovery
Plaintiff contends that its May 11, 2016 production was timely
because it added three days to the deadline for compliance with
the court’s May 3, 2016 order, due to electronic service of the
order. Dkt. No. 856 at 1 n.1. It cites Federal Rules of Civil
Procedure 6(d) and 5(b)(2)(E) for support. Id. The Court does
not read these provisions to extend the deadline by which a
party must comply with a court order based on electronic
service of the court order. But even giving Plaintiff the benefit
of the doubt, Plaintiff was still grossly noncompliant. Judge
Ryu ordered supplemental responses to be submitted within 7
days. Dkt. No. 640 at 6. Plaintiff only began production on May
11, Dkt. No. 856 at 1 n.1, and did not finish until early June,
Dkt. No. 807 at 4, thus failing by several weeks to meet the
court’s deadline.
5

37a

letter brief regarding Plaintiff’s failure to provide a
privilege log. Dkt. No. 451. Almawave argued:
Loop’s responses to Almawave’s First
Set of Requests for Production of
Documents were due and served on
August 3, 2015. Loop’s privilege log is
now more than seven months overdue,
nearly one month overdue from when
Almawave raised the issue in writing
via its agenda and over 14 days
overdue
from
when
Almawave
expressly wrote demanding that Loop
produce its privilege log.
Id. In response, Judge Ryu referred the parties to
her January 27, 2016 Notice of Amended Discovery
Procedures, which provided that “[i]f a party
withholds responsive information by claiming that it
is privileged or otherwise protected from discovery,
that party shall produce a privilege log as quickly as
possible, but no later than fourteen days after its
disclosures or discovery responses are due, unless
the parties stipulate to or the court sets another
date.” Dkt. No. 456 (citing Dkt. No. 401 at 4). Judge
Ryu ordered Plaintiff to produce the privilege log no
later than March 16, 2016. Dkt. No. 456.
On March 18, 2016, Almawave filed an
administrative motion for leave to file a unilateral
discovery letter brief in which it asserted that
Plaintiff had refused to comply with the court’s order
to produce a privilege log, seeking leave to move to
compel Plaintiff’s production of documents over its
privilege claims based on waiver. Dkt. No. 498.

38a

Plaintiff did not timely oppose Almawave’s
administrative motion and did not refute
Almawave’s representations about its refusal to
produce a privilege log. Dkt. No. 540 (“Order 540”).
Accordingly on March 29, 2016, Judge Ryu ordered
Plaintiff to show cause why it should not be
sanctioned for failing to comply with Order 456 and
why its failure to produce a privilege log should not
be deemed a waiver of any asserted privileges. Id.
Plaintiff’s response to the order to show cause
challenged the validity of Order 540, contending that
Defendant’s initial letter brief, Dkt. No. 451, should
have been denied. Dkt. No 576. Plaintiff also argued
that its conduct was “no different than what all the
Defendants have done in this case,” and that the
“only difference is that Loop AI did not immediately
run to the Court to seek sanctions.” Id. Finally,
Plaintiff represented that it intended to comply with
Order 456 by April 11, 2016, id., almost a month
after the court’s deadline.
On April 28, 2016, Almawave filed a third motion
related to Plaintiff’s privilege log, seeking leave to
file a unilateral brief regarding the sufficiency of
Plaintiff’s privilege log, Dkt. No. 630, which Plaintiff
opposed, Dkt. No. 637. After reviewing Plaintiff’s
privilege log, Judge Ryu issued an order on May 13,
2016, concluding Plaintiff had waived the attorneyclient privilege and work-product protection as to
most documents withheld from production. Dkt. No.
680 (“Order 680”). Order 680 provided three bases
for the waiver:
[First,] Almawave was literally unable

39a

to assess or challenge Plaintiff’s
claimed privileges or protection
because Plaintiff did not serve a
privilege log until April 2016,
approximately seven months after
Plaintiff’s initial production, and after
fact discovery closed on March 29,
2016. Plaintiff’s privilege log was thus
grossly late. [Second,] Plaintiff’s
service of its privilege log in April
2016 violated three separate court
orders: the June 2015 Notice of
Reference and Order re Discovery
Procedures, (Docket No. 117); the
court’s January 2016 Notice of
Amended Discovery Procedures; and
the court’s March 9, 2016 order to
produce a privilege log by March 16,
2016. Finally, Plaintiff’s privilege log
is plainly deficient. It contains no
information about the titles and
descriptions
of
the
withheld
documents, nor does it identify the
subject matters addressed in the
documents. This is exactly the kind of
information
that
would
enable
Almawave to assess whether the
assertion of privilege or protection is
justified. It is also the kind of
information that is required by Rule
26(b)(5), as well as the court’s
standing orders.
Id. at 4-5. Judge Ryu concluded that Plaintiff must
“produce the documents described above for which

40a

the court deems the attorney-client privilege and
work product production waived within seven days of
the date of this order,” i.e., by May 20, 2016. Id. at 6
(emphasis omitted).
Plaintiff sought reversal of Order 680 by this
Court, Dkt. No. 700, which denied the request, Dkt.
No. 712. Plaintiff then sought a writ of mandamus in
the U.S. Court of Appeals for the Ninth Circuit. In
re: Loop AI Labs, Inc., No. 16-cv-71736, Dkt. No. 1
(9th Cir. May 31, 2016). On the same day, Almawave
filed an administrative motion regarding Plaintiff’s
failure to produce the documents consistent with
Order 680, requesting either the issuance of an order
to show cause why terminating sanctions should not
be imposed for Plaintiff’s failure to comply or leave to
file a unilateral brief seeking such relief. Dkt. No.
715. On June 6, 2016, Plaintiff acknowledged that it
had refused to comply with Order 680, but asked
Judge Ryu to “grant it at least the ability to have its
petition reviewed by the Ninth Circuit before
entertaining any further motions” on Order 680. Dkt.
No. 725. Accordingly, Judge Ryu directed Plaintiff to
identify “authority for the position that petitioning
for a writ of mandamus to a United States Court of
Appeals has the effect of staying a party’s duty to
comply with the order that is the subject of the writ
of mandamus.” Dkt. No. 777. Plaintiff’s response
indicated that it had no such authority. Dkt. No. 804.
On July 11, 2016, Almawave filed an opposition to
Plaintiff’s response, in which it cited authority for
the proposition that the filing of the mandamus
petition did not impose such a stay. Dkt. No. 808. On
December 21, 2016, the Ninth Circuit denied
Plaintiff’s petition for “the extraordinary remedy of

41a

mandamus.” See Dkt. No. 961 at 2. The Ninth
Circuit held that Plaintiff’s “general overbreadth
objections . . . did not excuse [Plaintiff] from its
obligation to provide a privilege log of documents
responsive to proper, more narrow requests for
production.” Id. at 1.
On December 27, 2016, Plaintiff notified that
Court that it had “now produced to Defendants all of
the documents listed on its privilege log.” Dkt. No.
963. But this was over nine months after Judge Ryu
first ordered Plaintiff to produce a proper privilege
log, over seven months after Judge Ryu ordered
Plaintiff to produce the documents listed in its
“plainly deficient” log, and nearly nine months after
the March 29, 2016 fact discovery deadline. Plaintiff
thus acted in direct defiance of multiple orders.
E. Trade Secrets Disclosure
The
eleventh
cause
of
action
alleges
misappropriation of trade secrets against all
Defendants. In accordance with California Code of
Civil Procedure § 2019.210, Defendant IQS, Inc.
requested that Plaintiff provide trade secret
disclosure on multiple occasions. See, e.g., Dkt. Nos.
118, 232. After reviewing Plaintiff’s disclosures,
Judge Ryu concluded on December 21, 2015 that
Plaintiff’s “explanation of the trade secrets in its
second amended complaint” did not satisfy §
2019.210’s requirements. Dkt. No. 331 at 6-8 (“Order
331”) (“Plaintiff’s ‘disclosure’ through designation of
certain paragraphs in pleadings and declarations is
no substitute for specifically identifying and
describing the actual claimed trade secrets in order

42a

to permit [Defendants] to ascertain at least the
boundaries within which the secret[s] lie[].” (some
internal quotation marks omitted)). Judge Ryu
ordered Plaintiff “to file and serve a statement
identifying the specific trade secrets at issue within
21 days of the date of this order.” Id. at 7. Judge Ryu
warned that “Plaintiff’s identification of trade secrets
must be thorough and complete,” and that “[a]ny
future amendment to the disclosure will only be
permitted upon a showing of good cause.” Id.
After the court’s deadline passed, Defendant IQS,
Inc. moved to enforce Order 331, seeking to require
Plaintiff to provide a thorough and complete
identification of the trade secrets under § 2019.210.
Dkt. No. 459. Defendant IQS, Inc. sought sanctions
in the form of (1) preclusion of the introduction of
evidence as to the claim and/or (2) the sanction of
dismissal for failing to specify the trade secrets. Id.
at 3. Defendant Almawave joined in Defendant IQS,
Inc.’s motion to enforce Order 331. Dkt. No. 472.
After reviewing Plaintiff’s revised disclosures,
Judge Ryu held that Plaintiff’s trade secret
disclosures fell “far short of the ‘reasonable
particularity’ standard,” Dkt. No. 795 at 5 (“Order
795”), and that Plaintiff “failed to comply with
[Order 331] to provide a ‘thorough and complete’
identification of the trade secrets at issue in this
litigation,” id. at 12.
[T]he fact that Plaintiff publicly filed its
trade secret disclosure belies the proposition
that it contains information specific enough
to be considered ‘confidential’ trade secrets. .

43a

. Plaintiff’s attempt to meet its disclosure
obligation by pointing to allegations in its
pleadings and other court filings was
insufficient the first time, and is no more
sufficient now. . . Plaintiff’s technique of
listing general concepts or categories of
information
is
plainly
insufficient;
Defendants cannot fairly be expected to
rebut Plaintiff’s trade secrets claim without
a reasonably concrete definition of the
purported secrets. . . . Plaintiff’s categorical
descriptions render it impossible for
Defendants to conduct public domain or
other research to challenge the alleged
secrecy of the information at issue.
Id. at 6-11.6 Judge Ryu noted that Order 331 had
6

For example, Order 795 explained:
Plaintiff identifies categories of information
such as “actual and prospective investors and
partners,” “key contact information . . . at a
large Japanese technology company,” “key
contacts at a major telephone company,”
“confidential target partner, client, investor,
supplier, employee, consultant, advisor
information,” and “key service providers.”
Potential investors, clients, suppliers, or
contacts
theoretically
could
constitute
protectable facts. However, as noted above,
Plaintiff’s disclosure was unaccompanied by
any supporting documentation, and there is
no indication that Plaintiffs identified these
claimed trade secrets with more specificity.
Without more, Defendants are left to guess.
Who exactly are the secret companies or
individuals?

44a

“warned Plaintiff that ‘[a]ny future amendment to
[its] disclosure [would] only be permitted upon a
showing of good cause.’” Order 795 concluded that
Plaintiff had “not sought leave to amend its trade
secret disclosure” and its “failure to comply with the
court’s order [does not] constitute good cause to
amend.” Id. at 12. Finding Plaintiff’s disclosures
inadequate, Judge Ryu deferred to this Court in
determining the ramifications under Federal Rule of
Civil Procedure 37(b) of Plaintiff’s failure to obey her
discovery order. Id. at 13.
II. LEGAL STANDARD
“Federal Rule of Civil Procedure 37 authorizes
the district court, in its discretion, to impose a wide
range of sanctions when a party fails to comply with
the rules of discovery or with court orders enforcing
those rules.” Wyle v. R.J. Reynolds Indus., Inc., 709
F.2d 585, 589 (9th Cir. 1983). Rule 37 allows for
terminating sanctions that dismiss a plaintiff’s
action where there has been willfulness, bad faith, or
fault. Fed. R. Civ. P. 37(b)(2)(A)(v); Conn. Gen. Life
Ins. Co. v. New Images of Beverly Hills, 482 F.3d
1091, 1096 (9th Cir. 2007); Fjelstad v. Am. Honda
Motor Co., 762 F.2d 1334, 1337 (9th Cir. 1985).
“Disobedient conduct not shown to be outside the
control of the litigant is sufficient to demonstrate
willfulness, bad faith, or fault.” Jorgensen v.
Cassiday, 320 F.3d 906, 912 (9th Cir. 2003) (internal
quotation marks omitted).
In determining whether to impose terminating
Id. at 9 (citations omitted).

45a

sanctions under Rule 37(b)(2), courts consider five
factors: “(1) the public’s interest in expeditious
resolution of litigation; (2) the court’s need to
manage its docket; (3) the risk of prejudice to the
party seeking sanctions; (4) the public policy favoring
disposition of cases on their merits; and (5) the
availability of less drastic sanctions.” Conn. Gen.
Life, 482 F.3d at 1096 (internal quotation marks
omitted). “The sub-parts of the fifth factor are
whether the court has considered lesser sanctions,
whether it tried them, and whether it warned the
recalcitrant party about the possibility of casedispositive sanctions.”7 Id. “Where a court order is
violated, the first and second factors will favor
sanctions and the fourth will cut against them.”
Comput. Task Grp., Inc. v. Brotby, 364 F.3d 1112,
1115 (9th Cir. 2004) (per curiam). Thus, the Court’s
determination of whether terminating sanctions are
appropriate often turns on the third and fifth factors.
Id.
Moreover, “[d]ue process concerns further require
that there exist a relationship between the
sanctioned party’s misconduct and the matters in
controversy such that the transgression ‘threaten[s]
to interfere with the rightful decision of the case.’”
Anheuser-Busch, Inc. v. Nat. Beverage Distribs., 69
F.3d 337, 348 (9th Cir. 1995). Sanctions interfering
“Like most elaborate multifactor tests, our test has not been
what it appears to be, a mechanical means of determining
what discovery sanction is just. The list of factors amounts to a
way for a district judge to think about what to do, not a series
of conditions precedent before the judge can do anything, and
not a script for making what the district judge does appealproof.” Valley Eng’s Inc. v. Elec. Eng’g Co., 158 F.3d 1051, 1057
(9th Cir. 1998).
7

46a

with a litigant’s claim or defenses violate due process
when imposed merely for punishment of an
infraction that did not threaten to interfere with the
rightful decision of the case. G–K Props. v. Redev.
Agency, 577 F.2d 645, 648 (9th Cir. 1978).
Finally, the Ninth Circuit has noted that “an
evidentiary hearing on the matter for which a party
is sanctioned might be required before dismissal if
the party had sought to show that it was impossible
for them to comply with the discovery order.”
Religious Tech. Ctr. v. Scott, 82 F.3d 423, at *4 (9th
Cir. 1996), as amended on denial of reh’g (July 5,
1996) (unpublished) (emphasis in original); see also
Wyle, 709 F.2d at 592 (“When necessary, the district
court may hold an evidentiary hearing on a motion
for sanctions. Indeed, that method best determines
the appropriate sanctions while protecting a party’s
due process rights.”). That said, no court “has said
that evidentiary hearings are absolutely required
prior to a Rule 37 dismissal,” and “the decision
whether to hold an evidentiary hearing is well within
the court’s discretion.” Religious Tech., 82 F.3d at *4
(“Wyle does not make an evidentiary hearing an
absolute prerequisite to a dismissal sanction, even
when issues are in dispute.”); see also Pac. Harbor
Capital, Inc. v. Carnival Air Lines, Inc., 210 F.3d
1112, 1118 (9th Cir. 2000) (holding that a hearing is
not necessary so long as the party has had notice and
opportunity to be heard).
III. DISCUSSION
As an initial matter, the Court finds that
Plaintiff’s discovery violations were willful. The

47a

record illustrates that Plaintiff’s failures to provide a
privilege log, submit amended responses to
interrogatories or RFPs, provide adequate trade
secret disclosures, and proceed in a manner
consistent with the Federal Rules during depositions
were not outside Plaintiff’s control. See In re
Phenylpropanolamine (PPA) Prods. Liab. Litig., 460
F.3d 1217, 1233 (9th Cir. 2006) (“Disobedient
conduct not shown to be outside the litigant’s control
meets this standard.”). Instead, Plaintiff’s refusal to
comply clearly can be attributed to Plaintiff counsel’s
unrelenting belief that she was right, the Court was
wrong, and that her disagreement with the Court
excused her from complying with its orders. See, e.g.,
Dkt. No. 686 at 5 (continued argument that Judge’s
Ryu’s discovery orders are in error); Dkt. No. 541
(contending that Order 331 is in error and that
Plaintiff’s trade secret disclosures were sufficient).
But this is not the law. It is well established that
“[a]n attorney who believes a court order is
erroneous is not relieved of the duty to obey it.”
Malone v. U.S. Postal Serv., 833 F.2d 128, 133 (9th
Cir. 1987); see also Adriana Int’l Corp. v. Thoeren,
913 F.2d 1406, 1411 (9th Cir. 1990) (rejecting the
plaintiff’s argument that failure to produce
documents or comply fully with production orders
was excused because the court’s orders were in error,
and declaring that “[d]isagreement with the court is
not an excuse for failing to comply with court
orders”); Chapman v. Pac. Telephone & Telegraph
Co., 613 F.2d 193, 197 (9th Cir. 1979) (“An attorney
who believes a court order is erroneous is not
relieved of the duty to obey it. The proper course of
action, unless and until the order is invalidated by
an appellate court, is to comply and cite the order as

48a

reversible error should an adverse judgment result.”)
Because Plaintiff’s repeated intentional actions,
committed despite the Court’s many orders to the
contrary, establish the willful conduct necessary for
the imposition of terminating sanctions, the Court
proceeds to consider the five factors below.
A. First and Second Factors
The first two factors—the public’s interest in
expeditious resolution of litigation and the Court’s
need to manage its docket—weigh in favor of
dismissal, given that Plaintiff has violated countless
orders of the Court. See Comput. Task Grp., 364 F.3d
at 1115 (holding that the first two factors were met
when party failed to provide clear answers to
interrogatories and failed to produce documents as
ordered). Plaintiff refused to produce amended
responses to its RFPs and interrogatories, insisting
(despite several court orders) that its answers were
sufficient. Plaintiff failed to provide trade secret
disclosures, maintaining (again in the face of many
court orders) that its general categories of
disclosures were reasonably particular. Plaintiff
obstructed the deposition of multiple key witnesses
through coaching and improper objections, again
undeterred by the Court’s repeated admonitions. And
this does not even include the many times Plaintiff
eventually complied, but only after repeatedly being
directed to do so. See, e.g., Dkt. Nos. 501, 584, 587
(regarding Judge Ryu’s multiple orders that Plaintiff
produce documents in a searchable and printable
format); Dkt. Nos. 456, 540, 680, 712, 961, 963
(failing to produce an adequate privilege log, or
produce the documents listed in the inadequate log,

49a

until long after the close of discovery and in defiance
of several court orders); see also Fair Hous. of Marin
v. Combs, 285 F.3d 899, 906 (9th Cir. 2002)
(“[B]elated compliance with discovery orders does not
preclude the imposition of sanctions. Last-minute
tender of documents does not cure the prejudice to
opponents nor does it restore to other litigants on a
crowded docket the opportunity to use the courts.”
(citation and internal quotation marks omitted)).8
The Ninth Circuit has held that “the public has
an overriding interest in securing ‘the just, speedy,
and inexpensive determination of every action.’” In re
PPA Prods. Liab. Litig., 460 F.3d at 1227 (quoting
Fed. R. Civ. P. 1).
Orderly and expeditious resolution of
disputes is of great importance to the
rule of law. By the same token, delay
in reaching the merits, whether by
way of settlement or adjudication, is
costly
in
money,
memory,
manageability, and confidence in the
process. . . . The goal is to get cases
Plaintiff’s conduct with respect to the production of expert
Robert Pieraccini provides another example. On March 22,
2016, following briefing on a motion to compel, Dkt. Nos. 481,
489, Judge Ryu ordered Plaintiff to produce Pieraccini for up to
three hours of deposition. Dkt. No. 511. On June 3, 2016,
following briefing on a second motion to compel, Judge Ryu held
that Plaintiff had again refused to comply with the court’s
previous order and ordered Plaintiff for the second time to
produce Pieraccini for deposition within 7 days. Dkt. No. 720.
Judge Ryu
postponed ruling on Almawave’s request for
sanctions based on Plaintiff’s noncompliance with the March
22, 2016 order. Id. at 2.
8

50a

decided on the merits of issues that
are truly meritorious and in dispute.
Id. Plaintiff’s conduct has hindered and consistently
undermined the Court’s ability to move this case
towards orderly disposition. The action is around two
years old and yet there are nearly 1,000 docket
entries to date. Taking the depositions of the three
key executives at Loop AI as a representative
example, Plaintiff’s behavior necessitated at least six
orders directing Plaintiff to comply, to make
witnesses available for deposition, to not coach
deponents, and to limit objections to non-speaking
objections. See Dkt. Nos. 436, 465, 526, 533, 564, 884.
Similarly,
Plaintiff’s
interrogatory
responses
occasioned at least five orders, all of which in some
form directed Plaintiff to provide adequate responses
under the Federal Rules and this Court’s orders. See
Dkt. Nos. 428, 438, 508, 465, 640. These orders
highlight the enormously disproportionate time and
resources the Court has been required to devote to
this action. Plaintiff’s unwillingness or inability to
comply has hamstrung the Court’s ability to fairly
manage its docket for the benefit of all litigants with
pending cases before the Court. For these reasons,
the Court unequivocally and without hesitation finds
that the public’s interest in expeditious resolution of
litigation and the Court’s need to manage its docket
strongly favor terminating sanctions.
B. Third Factor
The third factor—prejudice to the party seeking
the sanction—also favors a terminating sanction.
Here, the Court looks to the impact the recalcitrant

51a

party’s actions have had on the other party. “A
defendant suffers prejudice if the plaintiff’s actions
impair the defendant’s ability to go to trial or
threaten to interfere with the rightful decision of the
case.” Adriana, 913 F.2d at 1412 (holding that the
plaintiff’s repeated failure to appear at depositions
and continuing refusal to comply with court-ordered
production of documents interfered with the rightful
decision of the case and therefore were prejudicial).
Moreover, “[f]ailure to produce documents as ordered
. . . is considered sufficient prejudice.” Id. at 1412.
“Late tender is no excuse.” In re PPA Prods. Liab.
Litig., 460 F.3d at 1227.
With each discovery violation, Plaintiff prejudiced
Defendants’ ability to prepare for and defend this
case. The Court’s deadline for the completion of fact
discovery was March 29, 2016, Dkt. No. 411, and yet
Plaintiff’s refusal to comply with discovery orders
extended far past the March deadline. As detailed
above, Plaintiff failed to produce, or belatedly and
incompletely produced, responses to document
requests; failed to provide adequate responses to
interrogatories; hindered the depositions of key
witnesses; and failed to disclose the trade secrets at
issue in the case. These failures have obstructed
Defendants’ attempts to learn what, if any, support
Plaintiff has for its claims.9 The Court finds that
Along the same lines, Plaintiff’s counsel has a persistent habit
of dumping hundreds or thousands of documents into the
record, which obscures, rather than clarifies, the issues to be
decided, and makes it impossible to move the case forward in
an orderly manner. See, e.g., Dkt. No. 878 (indicating that in
the lead-up to a trial then set for September 19, 2016, Plaintiff
had designated 3,371 potential exhibits numbering in the tens
9

52a

Plaintiff’s conduct prejudiced Defendants’ ability to
defend themselves and hampered the search for
truth, and that Plaintiff’s actions were particularly
harmful given the discovery deadline and the need to
prepare summary judgment motions. See N. Am.
Watch Corp. v. Princess Ermine Jewels, 786 F.2d
1447, 1451 (9th Cir. 1986) (endorsing district court’s
finding that “willful violation of the discovery order
had, given the imminence of the trial date,
prejudiced North American’s ability to prepare for
trial”).
C. Fourth Factor
The fourth factor considers the public policy in
favor of deciding cases on their merits. On the one
hand, dismissal certainly prevents resolution on the
merits. At the same time, however, the Ninth Circuit
has held:
[A]
case
that
is
stalled
or
unreasonably delayed by a party’s
failure to comply with deadlines and
discovery obligations cannot move
forward toward resolution on the
merits. Thus, we have also recognized
that this factor ‘lends little support’ to
a party whose responsibility it is to
move a case toward disposition on the
of thousands of pages); Dkt. Nos. 344-46 (three motions for
relief from nondispositive pretrial orders, all filed on the same
day, and totaling 850 pages); Dkt. Nos. 549-552, 651-56 (1,626
pages of documents filed along with Plaintiff’s opposition brief,
and subsequently refiled); Dkt. Nos. 781-86 (4,096 pages of
documents filed along with Plaintiff’s opposition brief).

53a

merits but whose conduct impedes
progress in that direction.
In re PPA Prods. Liab. Litig., 460 F.3d at 1228. It is
a party’s responsibility to respond to discovery, obey
court orders, and avoid dilatory tactics, and Plaintiff
has failed to discharge these responsibilities. Despite
the Court’s significant efforts to enable resolution of
this case on the merits, Plaintiff has persistently
undercut those efforts through repeated refusal to
comply with the Court’s orders and a chronic and
utter disregard for its obligations in this matter. In
circumstances such as these, the public policy
favoring resolution on the merits does not outweigh
Plaintiff’s bold refusal to comply with multiple
discovery orders. See Rio Props., Inc. v. Rio Int’l
Interlink, 284 F.3d 1007, 1022 (9th Cir. 2002)
(“While the public policy favoring disposition of cases
on their merits weighs against default judgment,
that single factor is not enough to preclude
imposition of this sanction when the other four
factors weigh in its favor.”).
D. Fifth Factor
The fifth factor—availability of less drastic
sanctions—weighs strongly in favor of dismissal. The
factor involves consideration of three sub-factors:
whether the court considered lesser sanctions,
whether it tried lesser sanctions, and whether the
court warned the disobedient party. Valley Eng’s Inc.
v. Elec. Eng’g Co., 158 F.3d 1051, 1057 (9th Cir.
1998). Although these measures are not necessarily
required, see id. at 1056-57, the Court has used all of
them in an attempt to foster resolution of this case

54a

on the merits.10
Section I of this order illustrates that for each
discovery dispute, Judge Ryu gave Plaintiff multiple
opportunities to comply. For example, Judge Ryu
warned the parties in December 2015 that there
could be no instruction not to answer except for
privilege during depositions. Dkt. No. 335 at 46.
After Plaintiff failed to heed the court’s warning and
again obstructed the Calafiore deposition, Judge Ryu
issued another warning, instructing Healy that
speaking objections, the coaching of deponents, and
instructing a deponent not to answer on a basis other
than privilege were unacceptable. Order 436. Judge
Ryu also issued a lesser sanction, requiring Plaintiff
to bear the cost of an additional five hours of
deposition. Id. Notwithstanding these orders and the
sanction, Healy’s behavior remained unchanged
during the deposition of Loop’s key executives. See
Order 884.
Additionally, the Court has issued unambiguous
warnings that a refusal to correct course and abide
by the local rules, standing orders, court orders, and
Federal Rules would result in sanctions. As early as
July 25, 2015, Judge Ryu warned during a discovery
Rule 37(b)(2) does not require that the Court warn the parties
that dismissal could be an appropriate sanction. Valley Eng’s,
158 F.3d at 1056. Rather, the Court has discretion “to make
such orders . . . as are just in regard to a party’s failure to obey
a discovery order, including dismissal.” Id. (internal quotation
marks omitted). “Thus the central factor in evaluating the
district court order is justice, and everyone has notice from the
text of Rule 37(b)(2) that dismissal is a possible sanction for
failure to obey discovery orders.” Id. at 1056-57.
10

55a

management conference that “if somebody takes a
position that is not substantial[ly] justified, of
course, they may open themselves up to Rule 37
sanctions or other sanctions.” Dkt. No. 157 at 18.
In February 2016, the Court noted that
[t]he one-year history of this action
reflects a profoundly troubling and
unprofessional pattern of behavior.
The parties are warned to self-correct
the
wasteful
and
dysfunctional
discovery dynamic in this case,
immediately. Failure to do so will be
punished as severely and as often as
necessary to ensure the level of
professional conduct required of those
who practice before this Court. See Civ.
L-R 11- 4(a) (attorneys permitted to
practice in this Court must “[p]ractice
with the honesty, care and decorum
required for the fair and efficient
administration of justice”).
Dkt. No. 415 at 3 (“Order 415”) (emphasis added).
The parties were warned that the status quo was
“unacceptable” and “unprecedented,” and that if the
“current conduct continues, the offending parties and
their counsel” would face significant consequences,
including the imposition of monetary or other
sanctions and referral to the Northern District’s
Standing Committee on Professional Conduct (Civil
Local Rule 11-6(a)(1)). Id. at 3. Order 415 spoke to
discovery conduct specifically:

56a

Consistent
with
their
ethical
obligations, the attorneys must treat
their discovery obligations with the
seriousness and diligence required of
them.
The
parties
must
act
responsibly during discovery, and
ensure that their conduct is consistent
with the spirit and purposes of the
discovery rules (including the parties’
personal obligation “to secure the just,
speedy,
and
inexpensive”
determination of this case). See Fed.
R. Civ. P. 1. This requires cooperation
among the parties, and mandates
adherence to the
proportionality
requirement of Federal Rule of Civil
Procedure Rule 26. . . . Obstructionist
behavior will not be tolerated.
Dkt. No. 415 at 2.
In light of this protracted history (which includes
countless discovery orders directing Plaintiff to
comply as well as Order 415), the Court concludes
that Plaintiff had sufficient notice that continued
refusal to follow the Court’s orders and rules would
lead to terminating sanctions.
The Court has
considered lesser sanctions as an alternative and has
tried alternative sanctions leading up to this order,
and finds that they are inadequate in the face of
Plaintiff’s persistent
disregard for the Court’s
authority.
Because
Plaintiff
has
remained
undeterred and because there is no reason to believe
additional lesser sanctions would be effective, the
fifth factor strongly favors terminating sanctions.

57a

F. Due Process Considerations
To begin, the Court finds that no hearing is
necessary for it to issue terminating sanctions. See
Religious Tech., 82 F.3d at *4. Plaintiff has had
multiple opportunities to be heard with regard to
the underlying discovery orders, and the Court has
reviewed each of Plaintiff’s filings and Judge Ryu’s
related orders in coming to the conclusion that
Plaintiff’s conduct warrants terminating sanctions.
Moreover, the Court finds that terminating
sanctions are “‘just’” and “specifically related to the
particular ‘claim’ which was at issue in the order to
provide discovery.” See Wyle, 709 F.2d at 591. The
discovery orders described in Section I relate directly
to the merits of the underlying action, and Plaintiff’s
refusal to comply interfered with the rightful
decision of the case. For example, Interrogatory No. 8
sought the factual bases for Plaintiff’s claims
relating to the Almaviva Defendant’s alleged intent
to buy Loop AI for a bargain price or to hire away
Plaintiff’s key employees and thereby acquire access
to Loop’s proprietary technology. Dkt. No. 428-1. The
interrogatory goes to the heart of all of Plaintiff’s
allegations in the SAC. And yet Plaintiff responded
to the interrogatory by directing Almawave “‘to all
productions by all parties and nonparties in this
case, and any further materials has [sic] may be
obtained through discovery or otherwise,’” and by
referring Defendants to “thousands of bates numbers
with no explanation” and “nearly 100 pages of
allegations that appear to be cut and pasted from
[the SAC].” Order 640 at 3. Although Judge Ryu gave
Plaintiff multiple opportunities to supplement its

58a

response, Plaintiff refused, indicating it had nothing
to add to the responses Judge Ryu had found wholly
inadequate. See Dkt. No. 856. This representative
example illustrates that dismissal of Plaintiff’s
action is the only way to move forward. Plaintiff’s
violations have harmed Defendants’ ability to
prepare a defense and patently obfuscated the basis
for Plaintiff’s claims, making it impossible to have
confidence that Defendants or the Court have access
to the facts and that any resolution at trial would be
fair and just. Accordingly, “[b]ecause there is a close
nexus between [Plaintiff’s] misconduct and the
merits of [the] case, due process concerns are not
implicated.” Anheuser- Busch, 69 F.3d at 355.
On September 26, 2016, the Court ordered
Plaintiff’s counsel to show cause why terminating
sanctions should not be imposed, to allow Plaintiff
another opportunity to be heard. Dkt. No. 894.
Plaintiff’s response reinforces the Court’s conclusion
that terminating sanctions are warranted and
necessary here. Astoundingly, Plaintiff’s counsel
characterizes “most” of Judge Ryu’s orders with
which the Court has found counsel failed to comply
as “sanction orders issued in violation of Loop AI’s
rights to due process, the Federal Rules, and the
Civil Local Rules.” Dkt. No. 922 at 1-2. In other
words, the orders and findings of the United States
Magistrate Judge who has spent scores, if not
hundreds, of hours managing the incessant discovery
squabbling in this case “are not a reliable basis on
which the Court can find Loop AI engaged in
‘obstructionist discovery’ conduct or refused to
comply with the Court’s orders.” Id. at 4. Put yet
another way, Plaintiff’s counsel essentially contends

59a

that Judge Ryu’s use of the most routine case
management tools to keep control of the sprawling
and unprecedented discovery battles she confronted
here, and her insistence on compliance with the
Court’s orders, in itself violated counsel’s
(unfounded) conception of her client’s due process
rights:
All of the Magistrate’s Orders result
from proceedings in which Loop AI
was allowed to make no record, was
given no hearing, and was generally
prohibited from submitting the
briefing and evidence with [sic] the
due process, the Federal Rules and the
Civil Rules guarantee. Many of the
Magistrate’s Orders listed include sua
sponte arguments (or sanctions) of the
Magistrate made for the first time in
the order. All but one of the
Magistrate’s Orders listed in [the
OSC] were issued without a duly
noticed motion and briefing that Loop
AI was entitled to submit under Civil
Local Rule 7. The procedural
deficiencies
that
permeate
the
Magistrate’s Orders mean the Court
would violate Loop AI’s due process
rights if it relied on those Orders to
issue any further sanctions of any
kind.
Id.
This claim that Judge Ryu’s basic, routine

60a

discovery management practices resulted in a
grievous and comprehensive due process violation is
frivolous in the Court’s view. And counsel’s argument
that “[r]elying on the Magistrate’s Orders for
purposes of a new sanction . . . would be improper
because it would alter the procedural posture of the
Magistrate’s Orders by suddenly turning them into
some sort of report and recommendation under Rule
72(b),” id. at 5, is nonsensical. Judge Ryu had full
authority to issue orders regarding nondispositive
matters, like discovery, under Rule 72(a), and the
litigants are bound to follow those orders unless
modified or set aside by the district court, period and
full stop. Counsel’s bizarre contention that mundane
discovery management procedures of the type that
occur every day in this district and many others are
broadly
unconstitutional
may
explain
her
documented and repeated failure to comply with
Judge Ryu’s orders, but in no way excuses that
failure.
Counsel also cites United States v. National
Medical Enterprises, Inc., 792 F.2d 906, 910 (9th Cir.
1986), for the principle that the Court “cannot
aggregate orders that relate to different issues” when
issuing sanctions. Dkt. No. 922 at 20. But the Ninth
Circuit has clarified that consideration of all of the
sanctioned party’s conduct is proper where, as here,
“all the misconduct is of the same type: discovery
abuses.” Adriana Int’l, 913 F.2d at 1412.
In addition, counsel contends that “the gravamen
of the charge leveled in [the OSC] appears to be that
Loop AI’s conduct somehow caused the Magistrate do
[sic] more work than the Court believes should have

61a

been required.” Dkt. No. 922 at 6. But the Court is
not saying that plaintiff has simply been a busy
litigant. Instead, the record establishes, abundantly,
that counsel’s constant failure to follow the Court’s
rules and orders has resulted in an unconscionable
waste of time and resources for all concerned.
Everything about counsel’s response to the OSC
reinforces why terminating sanctions are necessary:
in the end, counsel simply thinks she knows better
than the Court what the law requires, and when she
disagrees with a court order, she views compliance as
a matter solely within her own discretion. On appeal,
counsel can press her arguments that her conduct
was justified because of the Court’s allegedly
unconstitutional procedures, or because of opposing
counsel’s claimed bad behavior, or whatever other
grounds she wishes to assert. But the fundamental
reality is this: a court cannot effectively manage a
case when its orders are viewed by counsel not as
mandates to be followed, but as suggestions to be
complied with if, when and how counsel’s judgment
dictates. See Dkt. No. 964 (December 27, 2016 order
of Judge Ryu) (“In sum, the record is replete with
examples of Plaintiff’s unwillingness or inability to
comply with court-ordered procedures regarding
discovery dispute resolution, and in particular, the
requirement that the parties meet and confer in good
faith before seeking court intervention.”).
*
*
*
Plaintiff’s conduct has clogged the Court’s docket,
protracted this litigation, and made it impossible for
this case to proceed to any remotely fair trial. “The
most critical factor to be considered in case-

62a

dispositive sanctions is whether a party’s discovery
violations make it impossible for a court to be
confident that the parties will ever have access to the
true facts.” Conn. Gen. Life Ins., 482 F.3d at 1097
(internal quotation marks omitted). This is such a
case: Plaintiff has “so damage[d] the integrity of the
discovery process that there can never be assurance
of proceeding on true facts.” See id. (internal
quotation marks omitted). For these reasons, the
Court orders terminating sanctions pursuant to Rule
37(b)(2).
F. Dismissal under the Court’s Inherent
Authority
The Court will also address the bases separate
from Plaintiff’s discovery conduct that warrant
dismissal under the Court’s inherent authority.
Courts have the inherent power to impose various
non-monetary
sanctions,
including
“outright
dismissal of a lawsuit” for conduct that “abuses the
judicial process.” Chambers v. Nasco, Inc., 501 U.S.
32, 44-45 (1991); Roadway Express, Inc. v. Piper, 447
U.S. 752, 765 (1980).
Courts of justice are universally
acknowledged to be vested, by their
very creation, with power to impose
silence, respect, and decorum, in their
presence, and submission to their
lawful mandates. These powers are
governed not by rule or statute but by
the control necessarily vested in courts
to manage their own affairs so as to

63a

achieve the orderly and expeditious
disposition of cases.
Chambers, 501 U.S. at 43 (citations and internal
quotation marks omitted). These “inherent powers”
enable courts “to manage their cases and courtrooms
effectively and to ensure obedience to their orders.”
F.J. Hanshaw Enters. v. Emerald River Dev., Inc.,
244 F.3d 1128, 1136 (9th Cir. 2001). Through this
power, courts may sanction a party that has
“engaged deliberately in deceptive practices that
undermine the integrity of judicial proceedings,”
Leon v. IDX Sys. Corp., 464 F.3d 951, 958 (9th Cir.
2006) (internal quotation marks omitted), and in
conduct “utterly inconsistent with the orderly
administration of justice,” Wyle, 709 F.2d at 589.
“Before awarding sanctions pursuant to its
inherent power, the court must make an express
finding that the sanctioned party’s behavior
constituted or was tantamount to bad faith.” Haeger
v. Goodyear Tire & Rubber Co., 813 F.3d 1233, 1244
(9th Cir. 2016) (internal quotation marks omitted).
The Ninth Circuit has “found bad faith in a variety of
conduct stemming from ‘a full range of litigation
abuses.’” Id. (quoting Chambers, 501 U.S. at 46). For
inherent power sanctions to be proper, “the conduct
to be sanctioned must be due to willfulness, fault, or
bad faith.” Anheuser-Busch, 69 F.3d at 348 (internal
quotation marks omitted); see also Evon v. Law
Offices of Sidney Mickell, 688 F.3d 1015, 1035 (9th
Cir. 2012) (“[I]t is clear that a ‘willful’ violation of a
court order does not require proof of mental intent
such as bad faith or an improper motive, but rather,
it is enough that a party acted deliberately.”).

64a

Plaintiff’s refusal to follow the Court’s orders has
been pervasive and egregious. Even if Plaintiff’s
discovery failings had not cast doubt on the action’s
merits, Plaintiff’s refusal to obey Court orders and
proceed in a professional manner has created an
untenable situation. The record is riddled with
examples of unprofessionalism that make clear that
no adequate lesser sanction is available.
Plaintiff’s actions evince a persistent belief that it
is above any obligation to obey the Court’s orders,
deadlines, or rules. For example, Plaintiff’s
oppositions to the motions for summary judgment
were due on July 4, 2016. Plaintiff had earlier asked
for a three-week extension to respond to the motions,
which the Court denied. Dkt. No. 766. Plaintiff then
asked the Court for an extension until July 4, which
the Court granted. Dkt. No. 772. On July 5, 2016,
however, Plaintiff notified the Court that it would
not meet the Court’s deadlines. Dkt. No. 788.
Plaintiff then proceeded by rules of its own creation,
assuming the Court’s role in setting deadlines and
informing the Court when it would file its
oppositions. See Dkt. No. 788 (“I will be able to file
all remaining summary judgment briefing and
materials by close of business today, and Loop AI’s
Opposition to the Motion to Strike by no later than
tomorrow.”). Such a deliberate and willful refusal to
follow the Court’s orders was not an isolated
occurrence. See, e.g., Dkt. No. 796 (opposition brief
filed two days late); Dkt. No. 802 (“errata” of
opposition brief filed three days late); Dkt. No. 802-2
(redline of “errata” showing that substantial changes
were made to opposition brief, including the

65a

insertion of numerous new legal authorities); Dkt.
No. 807 (declaration of Plaintiff’s counsel in support
of opposition brief, and six attached exhibits, filed six
days late and one day before the reply brief was due);
see also Dkt. No. 850 (Judge Ryu orders a response to
be filed by July 26, 2016); Dkt. No. 856 (Plaintiff files
the response on July 27, 2016).
In August 2015, Judge Ryu described Plaintiff’s
refusal to follow the court’s instructions when
briefing a dispute. Dkt. No. 175 at 1 (“Order 175”).
Order 175 provided:
Plaintiff Loop AI, Inc. did not provide
full argument on several of the
disputes. Instead, as to one of the
disputes, Plaintiff requested leave to
fully brief its position on a protective
order, and attached an exhibit
containing its redline of changes to
Defendants’ proposed protective order,
along with one page of annotations
explaining certain edits, essentially
granting itself additional pages of
argument. The court previously
ordered the parties to follow the
structure and limits of its joint letter
process because it requires the parties
to focus on the most important issues,
and to make appropriate compromises.
The court is concerned that Plaintiff
continues to disregard this guidance.
Id. (citations omitted).

66a

In April 29, 2016, this Court admonished
Plaintiff’s blatant disregard for the Court’s rules
regarding page limits:
[T]he single-spaced argument on
pages 18-21 of Plaintiff’s opposition
blatantly circumvents the local rules
page
requirement
and
reflects
complete disregard for the Court’s
filing rules. See Civ. L-R 3-4(c) (“Text
must appear on one side only and
must be doublespaced with no more
than 28 lines per page . . . .”).
Dkt. No. 633 (“Order 633”).
In another incident, Plaintiff again confirmed its
refusal to follow the Court’s instructions and local
rules. In April 2016, the Court struck Plaintiff’s
declaration, exhibits, and appendix attached to its
opposition to Defendants’ motion to dismiss for lack
of jurisdiction. Order 633 (citing Civ. L.R. 7-5). The
Court held:
In violation of part (a) [of Civil Local
Rule 7-5], Plaintiff’s attached exhibits
and appendix, which include emails,
screenshots taken from company
websites,
contracts,
and
other
evidentiary materials, are largely
unauthenticated; there is no sworn
testimony or averment by a competent
witness that each attached item is a
true and correct copy of what Plaintiff
purports it to be. Additionally, in

67a

violation of part (b), the declaration
consists almost entirely of legal
conclusions and argument.
See id. In the interest of resolving the motion to
dismiss on the merits (rather than based on counsel’s
compliance failures), the Court permitted Plaintiff to
file revised declarations and exhibits. Id. Yet again,
despite the Court’s admonition, Plaintiff did not
follow the Court’s order, submitting the same
exhibits (including an unsworn 32-page chart in
timeline form that in no way complied with Order
633 or the local rules), and filing no declaration at
all. See Dkt. Nos. 651-56; Dkt. No. 717 (“Order 717”)
(holding that despite the fact that “Order 633 was
narrowly
directed
to
the
straightforward
requirements of the local rules[,] . . . Plaintiff refused
to follow the order, instead filing an exasperatingly
off-point 14-page response addressing Almawave’s
arguments and a host of issues simply irrelevant” to
Order 633’s limited scope). The Court held that it
would be fully justified in striking Plaintiff’s filing in
its entirety and granting the motion to dismiss based
on an absence of evidence in the record, but provided
Plaintiff yet another opportunity to comply,
explaining that it wanted the record to be crystal
clear that Plaintiff had been given multiple
opportunities to comply with the local rules and the
Court’s order. Order 717.
Additionally, Plaintiff has demonstrated a
willingness to shade the truth when communicating
with the Court. For example, regarding whether
Plaintiff’s counsel and Defendant had met and
conferred, Plaintiff’s counsel alleged that when “Loop

68a

AI returned counsel’s calls, they were not answered;
when messages were left, there were no returned
calls.” Dkt. No. 589. Counsel for Defendant IQS, Inc.
filed a response indicating that she called Plaintiff’s
counsel fifteen times between March 7 and March
31, 2016 attempting to meet and confer, and that
Plaintiff did not return her calls. Dkt. No. 596. Judge
Ryu ordered the parties to submit call, phone, and
email records supporting their allegations. Dkt. No.
612. The submitted evidence substantiated IQS,
Inc.’s position only, establishing that its counsel
“called Plaintiff’s counsel’s office numerous times
between March 7, 2016 and March 31, 2016, and
that most calls lasted between three and four
minutes because she left messages each time.” Dkt.
No. 625. Plaintiff’s evidence, however, did not
substantiate its position. “Plaintiff submitted
evidence of only one telephone call to IQS[, Inc.]’s
counsel from March 7, 2016 through March 31, 2016:
on March 22, 2016, Plaintiff’s counsel called IQS[,
Inc.]’s counsel’s office and left a message.” Dkt. No.
625. Contrary to Plaintiff’s suggestion to the court,
Healy did not make multiple calls, IQS, Inc. made
multiple calls to Healy, and there was no evidence
showing that IQS, Inc. refused to participate in the
court’s joint letter process. Dkt. No. 625.11
11 As another example, Plaintiff’s motion for an extension
indicated that she repeatedly reached out to Defendants
without a response. Dkt. No. 753. Almawave’s response,
however, included the email communications between the
parties showing that Defendant in fact responded multiple
times. Dkt. No. 763. Almawave argued:
11

Counsel for the Almawave Defendants
repeatedly asked Loop to provide a proposed
stipulation. Loop states that “[n]o counsel has

69a

Finally,
Plaintiff’s
counsel’s
conduct
is
unbecoming a member of the bar and the officers
that practice in this Court. On July 15, 2016, Healy
filed a letter with the Court indicating that she had
become so upset during a deposition that she
“slammed” her coffee on the table and spilled the
contents of her beverage allegedly on Almawave’s
counsel. Dkt. No. 832. The transcript reveals that
Almawave’s counsel told Healy to “Be quiet,” that
Healy threatened to leave the deposition with the
deponent, and that Almawave’s counsel advised the
deponent to stay because he was there under Court
order. Dkt. No. 840-1 at 40. Then the following
exchange ensued:
[Almawave’s Counsel to deponent]:
Sir, I think you should take five and
think about it [before leaving the
deposition with your counsel]. [Healy]:
No. I think you should take a fucking
agreed to stipulate to this request or to any
extension of time” and
“the Defendants
refused to agree [to] any briefing schedule.”
Dkt. 753 at 2:14-15 and 2:26-27. This is true
only because Loop refused to schedule a time
for a recorded call and never provided a
proposed stipulation.
Id. (emphasis and brackets in original). The attached email
communications confirmed Almawave’s characterization of
their communications. See Dkt. No. 763-2. Contrary to
Plaintiff’s representation to the Court, it was Plaintiff’s counsel
who failed to respond appropriately: given the Court’s order
requiring calls to be recorded, Dkt. No. 156 at 2, it was
disingenuous to repeatedly purport to seek to communicate via
unrecorded calls, see Dkt. No. 763-2 at 1.

70a

break.
You
should
take
-(Interruption
in
proceedings.)
[Almawave’s
Counsel]:
Oh,
my
goodness. [Healy]: Take a fucking
break. [Almawave’s Counsel]: I need
help. She just threw her coffee at me.
She’s going crazy. Sir, you should get a
lawyer. You’re a witness. Oh, my God.
Sorry about that. We’re going to go off
the record.
Id. at 414. When the deposition resumed, the
deponent confirmed that Healy threw her coffee in
opposing counsel’s direction, id. at 42, and that he
saw coffee on opposing counsel’s bag, computer, and
person, id. at 46. By affidavit, the court reporter
stated that Healy “threw a large cup of iced coffee
across the room,” that the beverage “landed on a
chair beside Attorney Wallerstein,” that “coffee was
all over the chair, the rug, dripping down Mr.
Wallerstein’s suitcase, across the width of the
suitcase, on his phone, computer, and on the table,”
and that “the side of his shirt and his pants were
also wet.” Dkt. No. 840-3 (Sambataro Decl.).
As Judge Ryu observed, “such an inappropriate
outburst would lead most people to apologize on the
spot – something along the lines of ‘I’m so sorry. Are
you okay? I lost my temper, and I shouldn’t have
done that. Let me pay for any damage I caused.’
Unfortunately, that did not happen here.” Dkt. No.
977 (“Order 977”) at 3. Instead, Plaintiff’s counsel
sought to justify her behavior and called the
resulting sanctions motion “outrageous” and

71a

“baseless.” Dkt. No. 853 at 1.12 The Local Rules
require every attorney practicing before this Court to
“[c]omply with the standards of professional conduct”
imposed by the State Bar of California; “[c]omply
with the Local Rules of the Court”; “[p]ractice with
the honesty, care, and decorum required for the fair
and efficient administration of justice”; and
“[d]ischarge his or her obligations to his or her client
and the Court[.]” Civ. L.R. 11–4(a). Healy has failed
to meet these standards as exhibited by her behavior
towards opposing counsel during this deposition. No
excuse (not even Healy’s belief that Almawave’s
counsel “insulted her” by telling her to “be quiet”)
can justify Healy’s on the- record use of profanity
and the ensuing outburst that resulted in her
hurling her coffee in opposing counsel’s direction.
And while these actions were “shocking and
inappropriate,” Healy’s subsequent defiance was
even more concerning: she “repeatedly refused to
take responsibility for her conduct, as she has done
throughout this case.” Order 977 at 4. Judge Ryu
aptly summarizes the arguments in Plaintiff’s
sanctions opposition brief as follows: (1) “[t]he devil
(my opposing counsel) made me do it”; (2) “I
apologized (sort of)”; (3) “[i]t wasn’t that bad”; and (4)
“[d]on’t take it out on my client.” Id. at 4-7 (emphasis
omitted); see also Dkt. No. 853 (brief).13 Overall, the
Judge Ryu ordered Plaintiff’s counsel to pay Almawave’s
counsel $250 in damages caused by her act, while deferring to
the undersigned regarding whether more serious additional
sanctions were warranted in light of the order to show cause
regarding terminating sanctions. Order 977 at 7.
13 Plaintiff’s counsel finally apologized at the sanctions hearing
before Judge Ryu. See Dkt. No. 946 at 39-40. Much of her
apology, however, centered on her belief that her reputation
12

72a

behavior of Plaintiff’s counsel during and following
her outburst is part of a consistent and case-long
lack of professional judgment, and a persistent
unwillingness to meet the standards of conduct
required of attorneys practicing in this District.
When Healy’s conduct is viewed in the context of
this case, the Court finds that only one remaining
sanction is fitting. Healy’s unprofessional conduct,
her refusal to obey the Court’s deadlines, rules, and
orders, and her inability to practice “with the
honesty, care, and decorum required for the fair and
efficient administration of justice” underscore the
necessity of terminating sanctions in this action.
Accordingly, the Court concludes pursuant to its
inherent power that terminating sanctions are
appropriate.
In addition, the Court exercises its discretion to
revoke Healy’s pro hac vice admission in this case
and will not grant such admission in any future
cases before the undersigned. See Civ. L.R. 11-3(c)
(“The assigned judge shall have discretion to accept
or reject the [pro hac vice] application. ”); see also
Brooks v. Motsenbocker Advanced Devs., Inc., 378 F.
App’x 753 (9th Cir. 2010) (noting that the district
judge below revoked the pro hac vice admission of

had been harmed by Almawave counsel’s “false allegations” as
well as her belief that she had already “been sanctioned by the
public.” Id. at 40. At any rate, the apology came over three
months after her outburst and the filing of Plaintiff’s
remarkably remorseless sanctions opposition brief. See Dkt. No.
853. Judge Ryu appropriately characterized the apology as “too
little, and far too late.” See Order 977 at 5 n.7.

73a

Plaintiff’s counsel with respect to that case only).14
IV. CONCLUSION
Dismissal is a harsh sanction warranted in only
extreme circumstances. In re PPA Prods. Liab. Litig.,
460 F.3d at 1226. The Supreme Court has held that
“the most severe in the spectrum of sanctions
provided by statute or rule must be available to the
district court in appropriate cases, not merely to
penalize those whose conduct may be deemed to
warrant such a sanction, but to deter those who
might be tempted to [engage in] such conduct in the
absence of such a deterrent.” Nat’l Hockey League v.
Metro. Hockey Club, Inc., 427 U.S. 639, 643 (1976).
This case presents such “extreme circumstances.”
Dismissal is appropriate not only as a sanction for
Plaintiff’s flagrant disregard for its responsibilities,
but also as a deterrent to others and to ensure the
integrity of the judicial process. The Court, therefore,
DISMISSES Plaintiff’s action with prejudice. Each
party will bear its own fees and costs. In addition,
the Court REVOKES the pro hac vice admission of
Valeria C. Healy in this case and will not grant such
admission in any future cases before the
undersigned.
To the extent not already resolved, the following
motions are MOOT: the summary judgment
motions, Dkt. Nos. 733, 737, 740; the motion to strike
or exclude Plaintiff’s evidence, Dkt. No. 738;
As an unpublished Ninth Circuit decision, Brooks is not
precedent, but can be considered for its persuasive value. See
Fed. R. App. P. 32.1; CTA9 Rule 36-3.
14

74a

Almaviva’s motion for Rule 11 sanctions, Dkt. No.
801; Almawave’s motion for relief from Plaintiff’s
refusal to comply with pretrial orders and IQS, Inc.’s
related joinder, Dkt. Nos. 869 and 871; Plaintiff’s
Daubert motion, Dkt. No. 875; Defendants’ motion
for default judgment, Dkt. No. 897; Plaintiff’s motion
for entry of judgment, enforcement of anti-SLAPP fee
award orders, and related remedies, Dkt. No. 957;
Plaintiff’s motion for partial judgment on the
pleadings, Dkt. No. 986; several motions to withdraw
or substitute counsel, Dkt. Nos. 892, 955, 956;
Plaintiff’s motion to file objections to the declaration
of Judge Ryu’s law clerk, Dkt. No. 938; Plaintiff’s
motions for relief from nondispositive trial orders
and objections pursuant to Federal Rule of Civil
Procedure 72, Dkt. Nos. 836, 846, 889, 905, 909, 968,
972, 974, 980, 98415; various administrative motions
to file under seal, Dkt. Nos. 490, 535, 626, 729, 735,
736, 799, 803, 805, 810, 857, 910; and several other
miscellaneous administrative motions, Dkt. No. 593
(regarding order on stipulation); Dkt. No. 629 (to
enforce protective order); Dkt. No. 794 (to file answer
out of time).
The case is hereby CLOSED. No motion for
reconsideration regarding this order will be
entertained by the Court.
Even if Plaintiff’s motions for relief from nondispositive trial
orders were not moot, the Court would nonetheless deem all of
them denied. See Civ. L.R. 72-2 (“If no order denying the motion
or setting a briefing schedule is made within 14 days of filing
the motion, the motion shall be deemed denied.”); see also Dkt.
No. 984 (Plaintiff’s most recent motion for relief from
nondispositive trial order, filed more than 14 days ago, on
February 14, 2017).
15

75a

IT IS SO ORDERED.
Dated: March 9, 2017

/s/ Haywood S. Gilliam, Jr.
HAYWOOD S. GILLIAM,
JR.
United States District
Judge

76a

ORDER TO SHOW CAUSE
(September 26, 2016)
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
LOOP AI LABS INC.,
Plaintiff,
v.
ANNA GATTI, et al.,

Case No. 15-cv-00798
(Dkt. 894)
ORDER TO SHOW
CAUSE

Defendants.
The Court ORDERS Plaintiff’s counsel to show
cause why terminating sanctions are not warranted
under Federal Rule of Civil Procedure 37(b) and the
Court’s inherent authority, in light of Plaintiff’s
documented history of obstructionist discovery
conduct and persistent refusal to follow Court orders
notwithstanding repeated warnings. As a result of
counsel’s conduct, the Court has expended a grossly
disproportionate and unreasonable amount of time
and resources on this case. Multiple orders were
required to obtain compliance on several issues, and
in many instances Plaintiff simply continues to
refuse to comply with the Court’s orders and the
Federal Rules. The record abounds with examples:
Improper Conduct during Depositions

77a

•

•

•

Order16
436
(describing
counsel’s
inappropriate behavior, imposing a sanction,
and warning that any further breach would
result in further sanctions)
Orders 465, 526, 564 (repeated orders
directing Plaintiff to produce executives Bart
Peintner and Patrick Ehlen for depositions)
Order 884 (describing the reoccurrence of
counsel’s obstructive and inappropriate
deposition conduct in direct violation of Order
436)

Refusal to Properly Respond to Key
Interrogatories
•
•

•

•

Orders 438, 508 (directing Plaintiff to amend
its response to Interrogatory No. 8)
Order 465 (directing Plaintiff to serve
amended responses to Interrogatory Nos. 3, 5,
7)
Order 640 (noting that Plaintiff’s responses to
Interrogatory Nos. 3, 5, 7, 8 were “plainly and
grossly deficient”)
Dkt. No. 856 (Plaintiff confirms refusal to
amend deficient interrogatories, claiming that
it has no information to provide as a
supplement to the interrogatories)

Failure to Properly and Timely Respond to
Requests for Production
•

16

Order 640 (ordering Plaintiff to amend its
responses to RFPs for failure to comply with

“Order” refers to the docket number.

78a

•

the requirements of the Federal Rules of Civil
Procedure)
Dkt. No. 807 (Plaintiff’s production starts on
May 11, 2016 and extends through early June,
even though Judge Ryu ordered the
supplemental responses to be submitted
within 7 days of May 3, 2016).

Refusal to Produce Privilege Log
•
•

•

•

Order 456 (directing Plaintiff to produce the
privilege log by March 16, 2016)
Dkt. No. 576 (Plaintiff’s response to an order
to show cause for failure to produce the
privilege log states that Plaintiff intends to
comply with Order 456 by April 11, 2016,
almost a month after the Court’s deadline)
Order 680 (finding Plaintiff’s privilege log
“plainly deficient,” and ordering Plaintiff to
produce the waived documents within seven
days)
To date, Plaintiff has still not complied with
Orders 456 and 680.

Trade Secrets Disclosure
•

•

Order 331 (finding Plaintiff’s trade secret
disclosure insufficient and ordering Plaintiff to
amend its disclosure, by identifying the
specific trade secrets at issue)
Order 795 (finding Plaintiff’s revised
disclosures still fell far short of the standard)

Other Examples of Plaintiff’s Disregard for the
Court’s Authority

79a

•

•

•

•
•

Order 501, 584, 587 (repeated orders directing
Plaintiff to produce documents in a searchable
and printable format)
Orders 551, 720 (repeated orders directing
Plaintiff to produce Robert Pieraccini for
depositions)
Order 175 (describing Plaintiff’s refusal to
follow the Court’s instructions when briefing a
dispute)
Order 633 (describing Plaintiff’s inability to
follow the local rules and the Court’s orders)
Dkt. No. 788 (Plaintiff states that it will not
meet the Court’s filing deadline, and proceeds
by rules of its own creation, setting its own
deadline for filing opposition briefs)

* * *
The Court issues this order to show cause in light
of counsel’s pervasive and repeated disregard for the
Court’s authority and obstructionist discovery
conduct. Plaintiff’s counsel must file a statement of
no more than 25 pages within seven days of the date
of this order, setting forth its position as to why
terminating
sanctions
are
not
warranted.
Defendants shall not file any response. This matter
will be submitted following Plaintiff’s filing of its
statement unless otherwise ordered by the Court.
IT IS SO ORDERED.
Dated: 9/26/2016
/s/ Haywood S. Gilliam, Jr.
HAYWOOD S. GILLIAM, JR.
United States District Judge

80a

CLERK’S NOTICE
REGARDING PLAINTIFF’S MOTION FOR A
DEFAULT JUDGMENT AGAINST ALMAVIVA
S.P.A. AND ALMAWAVE S.R.L.
(November 21, 2016) (ER44)
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
LOOP AI LABS INC.,
Plaintiff,
v.

Case No. 15-cv-00798
(Dkt. 952)
CLERK’S NOTICE
Filed: 11/21/2016

ANNA GATTI, et al.,
Defendants.
Docket Text: CLERK’S NOTICE.
Notice is hereby given that the Court takes the
pending 892 motion to withdraw as counsel and 897
motion for default judgment by the Court filings
under submission. The hearings previously
scheduled for December 1, 2016 and December 8,
2016 at 2:00 p.m. are vacated. The Court will issue a
written order. (This is a text−only entry generated by
the court. There is no document associated with this
entry.) (ndrS, COURT STAFF) (Filed on 11/21/2016)
(Entered: 11/21/2016).

81a

ORDER
VACATING TRIAL AND FINAL PRETRIAL
CONFERENCE
(August 23, 2016) (ER53)
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
LOOP AI LABS INC.,
Plaintiff,
v.
ANNA GATTI, et al.,

Case No. 15-cv-00798
(Dkt. 883)
ORDER
Filed: 8/23/2016

Defendants.
Docket Text:
ORDER by Hon. Haywood S. Gilliam, Jr. vacating
the pretrial conference and Daubert motion hearing
on August 30, 2016, the motion for sanctions hearing
on September 1, 2016, and the trial scheduled to
start on September 19, 2016. If there is to be a trial,
the Court will set a case management conference to
discuss scheduling with the parties. (This is a
text−only entry; there is no document associated
with this entry.) (hsglc3S, COURT STAFF) (Filed on
8/23/2016)(Entered: 08/23/2016).

82a

CLERK’S NOTICE
TAKING SUMMARY JUDGMENT MOTIONS
UNDER SUBMISSION
(July 19, 2016) (ER56)
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
LOOP AI LABS INC.,
Plaintiff,
v.
ANNA GATTI, et al.,

Case No. 15-cv-00798
(Dkt. 844)
CLERK’S NOTICE
Filed: 7/19/2016

Defendants.
Docket Text: CLERK’S NOTICE.
Notice is hereby given that the Court, on its own
motion, shall take the (733, 737, 740) motions for
summary judgment and the 738 motion to strike
under submission on the papers. The hearings
previously scheduled for July 21, 2016, are vacated.
(This is a text−only entry generated by the court.
There is no document associated with this entry.)
(ndrS, COURT STAFF) (Filed on 7/19/2016)
(Entered: 07/19/2016).

83a

EXCERPTS OF FED. R. CIV. P. 37
Rule 37. Failure to Make Disclosures or to
Cooperate in Discovery; Sanctions
(a) Motion for an Order Compelling
Disclosure or Discovery.
(1) In General. On notice to other parties and
all affected persons, a party may move for an
order compelling disclosure or discovery. The
motion must include a certification that the
movant has in good faith conferred or
attempted to confer with the person or party
failing to make disclosure or discovery in an
effort to obtain it without court action.
[…]
(b) Failure to Comply with a Court Order.
(1) Sanctions Sought in the District Where the
Deposition Is Taken. If the court where the
discovery is taken orders a deponent to be
sworn or to answer a question and the
deponent fails to obey, the failure may be
treated as contempt of court. If a depositionrelated motion is transferred to the court
where the action is pending, and that court
orders a deponent to be sworn or to answer a
question and the deponent fails to obey, the
failure may be treated as contempt of either
the court where the discovery is taken or the
court where the action is pending.

84a

(2) Sanctions Sought in the District Where the
Action Is Pending.
(A) For Not Obeying a Discovery Order. If a
party or a party’s officer, director, or
managing agent—or a witness designated
under Rule 30(b)(6) or 31(a)(4)—fails to obey
an order to provide or permit discovery,
including an order under Rule 26(f), 35, or
37(a), the court where the action is pending
may issue further just orders. They may
include the following:
(i) directing that the matters embraced in
the order or other designated facts be
taken as established for purposes of the
action, as the prevailing party claims;
(ii) prohibiting the disobedient party from
supporting or opposing designated claims
or defenses, or from introducing designated
matters in evidence;
(iii) striking pleadings in whole or in part;
(iv) staying further proceedings until the
order is obeyed;
(v) dismissing the action or proceeding in
whole or in part;
(vi) rendering a default judgment against
the disobedient party; or

85a

(vii) treating as contempt of court the
failure to obey any order except an order to
submit to a physical or mental
examination.
[…]
(C) Payment of Expenses. Instead of or in
addition to the orders above, the court must order
the disobedient party, the attorney advising that
party, or both to pay the reasonable expenses,
including attorney’s fees, caused by the failure,
unless the failure was substantially justified or
other circumstances make an award of expenses
unjust.
(c) Failure to Disclose, to Supplement an Earlier
Response, or to Admit.
(1) Failure to Disclose or Supplement. If a party
fails to provide information or identify a witness
as required by Rule 26(a) or (e), the party is not
allowed to use that information or witness to
supply evidence on a motion, at a hearing, or at a
trial, unless the failure was substantially justified
or is harmless. In addition to or instead of this
sanction, the court, on motion and after giving an
opportunity to be heard:
(A) may order payment of the reasonable
expenses, including attorney’s fees, caused by the
failure;
(B) may inform the jury of the party’s failure; and
(C) may impose other appropriate sanctions,
including any of the orders listed in Rule
37(b)(2)(A)(i)–(vi).
[...]

86a

EXCERPTS OF NOTES OF ADVISORY
COMMITTEE ON RULES
FED. R. CIV. P. 37
Notes of Advisory Committee on Rules. The
provisions of this rule authorizing orders
establishing facts or excluding evidence or striking
pleadings, or authorizing judgments of dismissal or
default, for refusal to answer questions or permit
inspection or otherwise make discovery, are in accord
with Hammond Packing Co. v Arkansas, 212 US 322,
29 S Ct 370, 53 L Ed 530, 15 Ann Cas 645 (1909),
which distinguishes between the justifiable use of
such measures as a means of compelling the
production of evidence, and their unjustifiable use,
as in Hovey v Elliott, 167 US 409, 17 S Ct 841, 42 L
Ed 215 (1897), for the mere purpose of punishing for
contempt.
Fed. R. Civ. P. 37, Notes of Advisory Committee on
Rules.

87a

EXCERPTS OF RESPONDENTS’ PETITION
FOR REHEARING BEFORE UNITED STATES
SUPREME COURT IN
NATIONAL HOCKEY LEAGUE V. METRO
HOCKEY CLUB
(Filed August 9, 1976)
REPRODUCED FROM PHOTOCOPY OBTAINED
FROM THE NATIONAL ARCHIVES
75-1558-CFX FILE #84432

In the
Supreme Court of the United States
OCTOBER TERM, 1976
No. 75-1558
RESPONDENTS’ PETITION FOR REHEARING
Eugene Gressman
1828 L Street, N.W.
Washington, DC 20006
(202)466-8400
Leonard W. Wagman
Michael C. Silberberg
Golenbock and Barrell
645 Fifth Avenue
New York, New York 10022
(212) 935-9800
Attorneys for Respondents

88a

Reproduced at the National Archives

TABLE OF CONTENTS
PAGE
Preliminary Statement………………………………….1
I— The Court’s per curiam reversal practice at the
certiorari stage is fundamentally unfair…………3
II—Full briefing by the parties is essential where
this Court acknowledges that its decision turns
upon its review of a lengthy and complex
record………………………………………………….7
III—This Court without benefit of briefing has
significantly altered the application of Rule 37
and standards of appellate review of Rule 37
dismissal orders ………………………...…………21
Conclusion ……………………………………………... 27
Certificate of Counsel .............................................. 29

[…]

89a

Reproduced at the National Archives

[….]
Preliminary Statement
On June 30, 1976, in the closing hours of the
October 1975 term, this Court—by a 6-2, vote—
summarily reversed the judgment of the Third
Circuit in this case.1 It reversed that judgment on
the basis of the certiorari papers alone, plus seven
large boxes of the record transmitted at the Court’s
own request. And, it reversed that judgment without
notice to the parties, without according the
respondents any opportunity to brief or otherwise
defend the merits of their case. The effect of that
summary reversal was to reinstate the judgment of
dismissal under Rule 37 with prejudice to
respondents’ complaint and counterclaims in five
consolidated anti-trust actions.
This petition for rehearing addresses itself to the
proposition that the June 30 per curiam order is
fundamentally unfair and should be reconsidered
and vacated. Both parties should be given the
opportunity to show cause in writing why the Third
Circuit’s judgment should be either affirmed or
reversed on its merits. Only in that way can a full
measure of fairness and due process be restored to
this Court’s practice of summary reversal on the
merits at the certiorari stage.
Mr. Justice Brennan and Mr. Justice White noted their
dissent from the per curiam order opinion. Mr. Justice Stevens
took no part in the disposition of this case. On timely
application Mr. Justice Brennan extended respondents’ time to
file this petition to August 9, 1976.
1

90a

Reproduced at the National Archives

This case is an appropriate vehicle for striking
this vestige of unfairness from the Court’s
procedures. As. will be seen below, it vividly
demonstrates both the inequities of the per curiam
reversal procedure and the factual, legal and even
constitutional errors that can ensue when the merits
of a factually complex case are resolved without
benefit of counsel’s arguments.
We submit that a fuller examination of the
record, and of the issues that were never briefed by
the parties, would demonstrate that this Court’s
decision of June 30 is in fact an abrupt departure
from the prior decisions of this Court rather than a
routine application of Rule 37. That decision has (i)
significantly broadened the range of conduct which
will subject a litigant to dismissal of his action by a
trial court without a hearing on the merits; (ii)
focused upon an entirely new consideration in
evaluating the propriety of the dismissal sanction,
i.e., the need for deterrence of others; and (iii) greatly
narrowed the scope of appellate review of Rule 37
dismissal orders while at the same time increasing
the need for strict scrutiny of such orders by
supplanting a heretofore objective standard of
“willfulness” with an exceedingly broad and
subjective one.
Full briefing and argument would also
demonstrate that the critical determinations of the
per curiam opinion, i.e., that the Third Circuit “did
not question any of the findings of historical fact by
the District Court” (Slip Op. p. 3) and that the
District Court’s findings “are fully supported by the

91a

Reproduced at the National Archives

record” (Slip Op. pp. 4-5) are in error and indeed,
that the highly complex factual record in this case
should have precluded the granting of certiorari in
the first instance.
Above all, full briefing and argument will
demonstrate what the per curiam fails to perceive;
that a meritorious anti-trust action of public
importance has, in the final analysis, been dismissed
because of a clerical error caused by a highly
ambiguous order of the District Court, an error that
resulted in an unintended and inadvertent failure to
timely file supplemental answers to 56 of 1150
interrogatories. The action has been dismissed
despite the conclusion of the Appellate Court that
respondents’ counsel had worked “frantically to
complete discovery within the deadlines set by the
court” (App. A, p. 14a)2 and exercised an “enormous
effort” (App. A, p. 16a).
The documentary evidence of the clerical error
and the detailed chronology of respondents’
“enormous effort” to prepare this case for trial—both
of which were among the many record documents
carefully “review[ed]” by the Third Circuit (App. A, p.
16a)—are submitted in a separate Reproduced at the
National Archives Appendix to this petition.

“App.” references are to the Appendix to the Petition for
Certiorari. “R” references are to the pages of the Joint Appendix
in the Court of Appeals. “RA” references are to the Record on
Appeal.
2

92a

Reproduced at the National Archives

I
This Court’s per curiam reversal practice at
the certiorari stage is fundamentally unfair.
The June 30 per curiam reversal order brings into
sharp focus the inequities inherent in the Court’s
long-standing practice in this regard. That order
raises anew the question put nearly twenty years ago
by Professor Ernest J. Brown of the Harvard Law
School,3 the question being
“... whether the present rules and stated
practices of the Court permit summary
reversal and at the same time afford
hearing to the respondent appropriate to
the case and consistent with what is
usually expected of judicial tribunals.”
All neutral observers of this Court’s summary
reversal practice have answered that question in the
negative by observing that the practice, “unless
narrowly confined to the most obvious situations,
contains an element of unfairness toward the
parties, and particularly toward the respondents.”4
Brown, Foreword: Process of Law, The Supreme Court, 1957
Term, 72 Harv. L. Rve. 77, 79 (1958).
3

R. Stern and E. Gressman, SUPREME COURT PRACTICE, Sec.
5.12 at 222 (4th ed. 1969). In addition to Professor Brown’s
4

93a

Reproduced at the National Archives

And that “element of unfairness” lies precisely in the
fact that the respondents are denied any meaningful
opportunity to brief or argue the merits of their case
prior to this Court’s final resolution of those merits,
particularly where those merits are embedded in a
highly complex factual record.
This critical “element of unfairness” is deeply
embedded in this Court’s rules and practices to the
point where the respondents’ adherence to the rules
respecting certiorari becomes a trap that exposes
them to the “element of unfairness” without
recourse. Consider the following:
(1) Nothing in this Court’s rules contemplates or
warns a respondent that he may lose his case on the
merits at the certiorari stage.
(2) The bar has been repeatedly warned that
petitions for certiorari and briefs in opposition
should not only be short but should limit their
contents to a discussion of whether there are what
Rule 19 calls “special and important reasons” for
granting certiorari and thereby avoid reaching the
merits of a given case. And respondents in particular
have been taught that their sole function at the
certiorari stage is “to induce the Court to deny a
petition for certiorari, not to win a case on the
provocative analysis, supra n. 3, see Note, Supreme Court Per
Curiam Practice: A Critique, 69 Harv. L. Rev. 707, 723 (1956);
Comment, Per Curiam Decisions of the Supreme Court: 1958
Term, 27 U. Chi. L. Rev. 128 (1959); Note, The Supreme Court,
1960 Term, 75 Harv. L. Rev. 40, 93 (1961).

94a

Reproduced at the National Archives

merits.”5
(3) In accordance with that admonition, the
respondents in the instant case carefully refrained
from arguing the merits or the factual basis of the
Rule 37 dismissal order—as did the petitioners, who
expressly conceded that it is not “appropriate for this
Court to review such factual issues on certiorari”
(Petition, p. 18). More particularly, the respondents
were constrained not to address themselves to the
key determination made by this Court in its June 30
per curiam opinion:
“Certainly the findings contained in
the memorandum opinion of the
District Court quoted earlier in this
opinion are fully supported by the
record.” (Slip Op. pp. 4-5)
That determination does not reflect any of the
questions presented in the petition for certiorari,
which were limited solely to the interpretation of
Rule 37 (see Petition, pp. 2-3). Nor does it reflect any
of the “special and important reasons” mentioned in
Rule 19 for granting certiorari. Thus, by adhering to
the rules respecting certiorari, the respondents were
trapped into not arguing the merits of their case and
not defending the judgment of the Third Circuit on
the basis of the extensive record.
[…]
R. Stern and E. Gressman, SUPREME COURT PRACTICE, supra
n. 4, Sec. 6.45 at 315 (4th ed. 1969).
5

